<html>
<title> - LEGISLATIVE HEARING ON H.R. 813; H.R. 806; AND A DRAFT DISCUSSION BILL ``TO AMEND TITLE 38, UNITED STATES CODE, TO DIRECT THE SECRETARY OF VETERANS AFFAIRS TO SUBMIT TO CONGRESS A FUTURE-YEARS VETERANS PROGRAM AND A QUADRENNIAL VETERANS REVIEW, TO ESTABLISH IN THE DEPARTMENT OF VETERANS AFFAIRS A CHIEF STRATEGY OFFICER, AND FOR OTHER PURPOSES''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
LEGISLATIVE HEARING ON H.R. 813; H.R. 806; AND A DRAFT DISCUSSION BILL 
  ``TO AMEND TITLE 38, UNITED STATES CODE, TO DIRECT THE SECRETARY OF 
VETERANS AFFAIRS TO SUBMIT TO CONGRESS A FUTURE-YEARS VETERANS PROGRAM 
 AND A QUADRENNIAL VETERANS REVIEW, TO ESTABLISH IN THE DEPARTMENT OF 
  VETERANS AFFAIRS A CHIEF STRATEGY OFFICER, AND FOR OTHER PURPOSES''

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JULY 17, 2013

                               __________

                           Serial No. 113-30

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
82-246                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87e0f7e8c7e4f2f4f3efe2ebf7a9e4e8eaa9">[email&#160;protected]</a>  


                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking
GUS M. BILIRAKIS, Florida            CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE MCLEOD, California
MARK E. AMODEI, Nevada               ANN M. KUSTER, New Hampshire
MIKE COFFMAN, Colorado               BETO O'ROURKE, Texas
BRAD R. WENSTRUP, Ohio               TIMOTHY J. WALZ, Minnesota
PAUL COOK, California
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                             July 17, 2013

                                                                   Page

Legislative Hearing On H.R. 813; H.R. 806; And A Draft Discussion 
  Bill ``To Amend Title 38, United States Code, To Direct The 
  Secretary Of Veterans Affairs To Submit To Congress A Future-
  Years Veterans Program And A Quadrennial Veterans Review, To 
  Establish In The Department Of Veterans Affairs A Chief 
  Strategy Officer, And For Other Purposes''.....................     1

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman,......................................     1
    Prepared Statement of Chairman Miller........................    31
Hon. Michael Michaud, Ranking Minority Member....................     3
    Prepared Statement of Hon. Michaud...........................    32
Hon. Julia Brownley, Ranking Minority Member, Subcommittee on 
  Health.........................................................     5
Hon. Jackie Walorski, Prepared Statement only....................    33

                               WITNESSES

Robert D. Snyder, Acting Assistant Secretary for the Office of 
  Policy and Planning, U.S. Department of Veterans Affairs.......     6
    Prepared Statement of Mr. Snyder.............................    34
    Accompanied by:

      Ms. Helen Tierney, Executive in Charge for the Office of 
          Management and Chief Financial Officer, U.S. Department 
          of Veterans Affairs

      Mr. Duane C. Flemming, Director, Policy Analysis and 
          Forecasting, Office of the Assistant Deputy Under 
          Secretary for Health, Veterans Health Administration, 
          U.S. Department of Veterans Affairs
Carl Blake, National Legislative Director, Paralyzed American 
  Veterans of America, on behalf of the Independent Budget co-
  authors........................................................    19
    Prepared Statement of Mr. Blake..............................    36
    Accompanied by:

      Mr. Adrian Atizado, Assistant National Legislative 
          Director, Disabled American Veterans

      Joy Ilem, Deputy National Legislative Director, Disabled 
          American Veterans

      Mr. Ray Kelley, Director, National Legislative Service, 
          Veterans of Foreign Wars

      Ms. Diane Zumatto, National Legislative Director, AMVETS
Louis J. Celli, Jr., Director, National Legislative Division, The 
  American Legion................................................    21
    Prepared Statement of Mr. Celli, Jr..........................    41


LEGISLATIVE HEARING ON H.R. 813; H.R. 806; AND A DRAFT DISCUSSION BILL 
  ``TO AMEND TITLE 38, UNITED STATES CODE, TO DIRECT THE SECRETARY OF 
VETERANS AFFAIRS TO SUBMIT TO CONGRESS A FUTURE-YEARS VETERANS PROGRAM 
 AND A QUADRENNIAL VETERANS REVIEW, TO ESTABLISH IN THE DEPARTMENT OF 
  VETERANS AFFAIRS A CHIEF STRATEGY OFFICER, AND FOR OTHER PURPOSES''

                        Wednesday, July 17, 2013

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:15 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[Chairman of the Committee] presiding.
    Present: Representatives Miller, Roe, Runyan, Wenstrup, 
Cook, Walorski, Michaud, Takano, Brownley, Kirkpatrick, Ruiz, 
Kuster, O'Rourke, Walz.

              OPENING STATEMENT OF CHAIRMAN MILLER

    The Chairman. Good morning. Welcome to this morning's 
legislative hearing.
    We are going to hear testimony today on three particular 
pieces of legislation. The first bill is an outstanding bill 
that I introduced along with Ranking Member Mike Michaud. It is 
H.R. 813, Putting Veterans Funding First Act of 2013; second, 
806, a bill introduced by Ms. Brownley; and the third bill is a 
bill I, again, have joined with the Ranking Member in 
introducing, the Department of Veterans Affairs Budget Planning 
Reform Act for 2013.
    First let me focus my opening remarks on H.R. 813. As most 
of my colleagues are aware, just over four years ago, we 
started providing VA's medical care budget one year in advance. 
And, of course, the reason behind the law that directed this 
change in practice was pretty simple. A full year 
appropriations bill for VA had been enacted on time in only 
four of the prior 20 years.
    According to VSOs and VA officials, delayed appropriations 
inhibited the ability of program administrators to plan 
effectively. So the hiring of doctors and nurses was being 
delayed, medical equipment purchases were being put off, and 
veterans experienced unacceptable wait times for medical 
appointments due to rationing.
    By providing the medical care budget in advance, no longer 
would funding for VA's health system be held hostage to the 
gridlock that we have grown accustomed to here in the Nation's 
capitol.
    I had hoped that things would improve in the intervening 
years, but, unfortunately, not much has changed. We are still 
lurching forward with stop-gap funding measures and periodic 
threats of shutdowns of the government.
    So when I introduced the Putting Veterans Funding First Act 
earlier this year, all of government was operating under a CR 
or a continuing resolution. It was not until March, nearly six 
months into the fiscal year, when a full-year appropriation was 
finally enacted.
    So although VA health care was protected, the other 14 
percent of VA's discretionary spending was being held in limbo, 
things like VA's information technology systems, claims 
processing, facility construction, medical research projects, 
veterans' cemeteries. Full-year funding for all of these items 
was in doubt until the very end.
    Here we are yet again with a status of next year's 
appropriation bills in the air. There is no agreed upon budget 
framework. The House and the Senate are miles apart on our 
appropriations measures and the Administration has even issued 
a veto threat on the House passed funding bill for VA for 
reasons that have nothing to do with the bill itself.
    Once more, political calculations having nothing to do with 
our veterans are putting our collective support for funding for 
their benefits and services at risk. I think we would all agree 
that our veterans deserve better than this.
    So I listened carefully to the statements of support on the 
floor for advanced appropriations during debate on the fiscal 
year 2014 VA MilCon bill. Members from both parties spoke in 
high praise, one touting, quote, ``Absolute peace of mind and 
no worries,'' end quote, brought to veterans through the 
advanced appropriations process.
    I heard another hail it as a, quote, ``Platform for long-
term planning and investment,'' quote. And still another lauded 
it as providing, quote, ``Timely and predictable resources,'' 
end quote. And I agree with those statements wholeheartedly. 
They apply equally to the accounts that H.R. 813 seeks to fund 
in advance.
    Each of those areas requires advanced planning for 
staffing, equipment or contract services, all of that is made 
more difficult when there is no certainty of what the full year 
funding level will be. So Putting Veterans Funding First would 
end the uncertainty by ensuring VA has its full discretionary 
appropriation well before its fiscal year begins.
    And I am grateful for the support the bill has garnered 
across a wide spectrum of veterans' organizations. It is 
entirely consistent with the protections afforded to veterans' 
funding in law that currently exists today. VA is exempt from 
sequester and it receives 86 percent of its discretionary 
funding already in advance. H.R. 813 just goes that extra mile.
    So in the face of dysfunction that exists at both ends of 
Pennsylvania Avenue, this is one area where we can continue to 
get it right.
    I want to thank my colleagues who have already supported 
the bill. I would ask those who have not, to join us in truly 
putting veterans' funding first.
    And I want to recognize now my good friend and Ranking 
Member from Maine, Mike Michaud, for his opening statement.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

           OPENING STATEMENT OF HON. MICHAEL MICHAUD

    Mr. Michaud. Thank you very much, Mr. Chairman, for holding 
this very important hearing this morning.
    The three measures before us looks at planning, funding, 
and oversight. Individually, each measure is very beneficial, 
but when we look at it together, they provide an analytic and 
transparent framework for VA, Congress, and other stakeholders.
    They ensure requested resources are sufficient to meet the 
current and future needs of veterans. They also ensure that 
these resources achieve the best outcome for veterans.
    I want to thank the Chairman for bringing forward his bill, 
H.R. 813. I believe that in order to extend advanced 
appropriations for the remaining VA discretionary account, we 
must have strong confidence that the underlying budget 
projections are appropriate within a long-term context.
    The context must include a forward-looking strategy with 
goals and objectives and a five-year plan with expected 
outcomes, milestones, and resources. There must be a greater 
visibility for Congress into the assumptions, definitions, and 
details then that provides the top-line appropriation accounts.
    This information will ensure us that all VA's missions are 
identified, planned, and executed. This will also give us 
insight into any tradeoffs VA may make between resources and 
outcomes and enable us to better oversee whether the VA is 
meeting its stated goals with executed resources.
    Before we budget and appropriate dollars, we must plan in 
programs. This is a nutshell of my bill, the Department of 
Veterans Affairs Budget Planning Reform Act of 2013. My bill 
will codify VA planning, program, budgeting, and evaluation or 
PPBE system. The PPBE is best practices currently used by 
leading corporations, important segments of our Federal 
Government as well.
    For planning, it looks at the strategic level by means of a 
quadrennial veterans' review, the QVR, that periodically 
assesses the changing environment. The QVR ensures VA is in a 
position to meet the evolving needs of our veterans.
    For programming, it aligns resources and efforts with a 
strategic direction by means of a five-year program. This lays 
out the path and outcomes and resources to get there. The five-
year program looks beyond a single year's budget and next 
year's forecast and forces the VA to accurately and fully 
account for the taxpayers' dollars that is provided to the VA. 
It would provide Congress a vital tool that we need to use to 
assess the effectiveness of VA in meeting its responsibility.
    The bill designates a chief strategy officer to ensure that 
the planning and programming phases of the process receives 
equal consideration with the budget and execution phases.
    All these stages must be in place to create a mechanism 
that will better ensure that the VA budget provides the 
resources tailored to the missions of the department and that 
the need for these resources is fully defensible.
    The bill does not graft Department of Defense or Department 
of Homeland Security policies on to the VA. This bill uses 
these agencies as a model, but it is crafted to meet the unique 
needs of veterans and the VA.
    DoD is significantly larger than VA, has a different 
mission and has over 50 years of experience operating under a 
PPBE system. There is no expectation that the VA can or should 
match what DoD does today. It is a principle of long-range 
planning and programming that the VA should adopt, not the 
8,500 DoD program elements or their resources intensive 
approach.
    My bill recognizes VA's current efforts and intended to 
support these efforts while making sure Congress has access to 
the information we need to do our job. For the last few years, 
VA has experienced a period of budget growth and has been led 
by a secretary who supports analytic and transparent budget 
development, but we cannot expect these conditions to be 
permanent.
    We should use the opportunity we have today to build a 
lasting framework to enable VA to meet its mission today and 
tomorrow. Fiscal constraints must come and leadership will 
transcend. We must prepare now for VA to meet the challenges, 
codify a VA PPBE system in statutes to ensure continuance in 
good times and during bad times.
    I recognize that PPBE mechanism is a change in the way VA 
has done financial management. Change is hard, but everyone 
will be comfortable with this change. But change is necessary 
if we are to position the VA to meet its responsibilities and 
fulfill its mission in the coming years. Change is necessary if 
we are to perform our responsibility as Congress.
    My bill, and the bills before us today, acknowledges that 
the status quo is no longer acceptable and this acknowledgment 
requires that we take action.
    So I want to thank you, Mr. Chairman, for your help and 
support with my bill and in having the Committee look at the 
broader picture of VA budgeting and planning.
    And with that, I yield back. And I would ask unanimous 
consent that my full remarks be entered into the record.

    [The prepared statement of Hon. Michaud appears in the 
Appendix]

    The Chairman. Without objection, all Members will have five 
legislative days with which to revise and extend their remarks.
    Ms. Brownley, I would like to recognize you to discuss your 
bill, H.R. 806.

            OPENING STATEMENT OF HON. JULIA BROWNLEY

    Ms. Brownley. Thank you, Chairman Miller and Ranking Member 
Michaud, for holding this important Full Veterans' Affairs 
Committee legislative hearing today.
    H.R. 806, the Veterans Healthcare Improvement Act, was the 
very first bill that I introduced as a new Member of the 113th 
Congress. I am grateful that the Full Committee is considering 
this important legislation.
    As Ranking Member of the Subcommittee on Health, I believe 
it is, as we all do, I believe it is vitally important to 
ensure adequate funding for veterans' health care programs.
    I am sure the Committee knows in 2006, 2007, and 2008, the 
prior Administration's budget request for VA health care was 
not sufficient to meet the needs of our veterans. The funding 
shortfall in those years forced Congress to provide 
supplemental appropriations to ensure the VA would have 
sufficient funds to continue to provide basic health care 
services to our Nation's veterans.
    In 2009, Congress passed the Veterans Health Care Budget 
Reform and Transparency Act which provided for advanced 
appropriations for Veterans Health Administration programs. It 
also ensured the accuracy of the Administration's advanced 
budget request.
    Congress also included a requirement for the GAO to review 
the accuracy of the Administration's advanced budget 
projections. Pursuant to this law, the GAO issued reports 
reviewing the 2011 and 2012 advanced appropriations request for 
veterans' health care. It is my understanding that the 2013 
report will soon be issued.
    The GAO report has helped Congress and this Committee to 
evaluate the accuracy of the Administration's budget 
projections. It also ensures the VA is functioning based off of 
accurate information. And most importantly, this GAO review has 
provided Congress with third-party neutral assurance that the 
VA would not run out of money for veterans' health care.
    Unfortunately, this GAO reporting requirement is scheduled 
to sunset at the end of the calendar year. While the GAO 
reviews have largely confirmed that the current Administration 
is budgeting sufficient sums for veterans' health care, I am 
concerned that without this review, future budget projections 
could be inaccurate and risk our ability to adequately meet the 
health needs of our men and women veterans.
    We owe it to our current and future veterans to ensure the 
VA never again runs low on resources to provide health care to 
our veterans. They risked their lives to serve our country. Our 
job is to ensure that we take care of them at home.
    Allowing this GAO review to sunset puts veterans' health 
care in jeopardy. We cannot take that risk. With the draw-down 
of forces in Afghanistan, we will soon see a huge increase in 
the number of veterans accessing VA health care. Now is not the 
time to eliminate the GAO review.
    That is why in February, I introduced H.R. 806, which makes 
permanent the requirement for GAO to review the accuracy of 
advanced appropriation requests for veterans' health care.
    Passage of my bill will help Congress continue to evaluate 
the accuracy of the budgeting process and most importantly 
ensure our Nation's veterans receive vital health care 
services.
    I am profoundly grateful for the service and sacrifices 
made by all of our Nation's veterans and their families. As 
Members of this Committee, it is our duty to ensure veterans 
always receive the benefits they need in a timely and efficient 
manner.
    Again, I would like to thank the chair and the Ranking 
Member and the Members of this Committee for considering this 
important legislation. I would also like to thank all of the 
veteran service organizations here today who fight every day on 
behalf of our Nation's veterans.
    I look forward to discussing this legislation further and 
happy to answer any questions. And I yield back the rest of my 
time.
    The Chairman. Thank you very much, Ms. Brownley. I 
appreciate the comments that you have made on H.R. 806.
    I want to welcome our first panel to the table today. Mr. 
Robert Snyder is the Acting Assistant Secretary for the Office 
of Policy and Planning for the Department of Veterans Affairs. 
He is joined by two individuals. Ms. Helen Tierney is with him 
and Mr. Duane Flemming is with him as well.
    Mr. Snyder, you are recognized for five minutes.

                 STATEMENT OF ROBERT D. SNYDER

    Mr. Snyder. Chairman Miller, Ranking Member Michaud, 
distinguished Members of the Veterans' Affairs Committee, thank 
you for your unwavering commitment to veterans and for this 
opportunity to testify on three bills related to VA's strategic 
planning, programming, and budgeting efforts.
    In addition to the other two VA witnesses, let me also 
acknowledge the veteran service organizations here today. Their 
insights are always appreciated.
    Mr. Chairman, I ask that my written statement be included 
for the record.
    The Chairman. Without objection.
    Mr. Snyder. With the support of this Committee, we have 
improved our planning and resource allocation processes, but we 
know we can do better.
    In regards to H.R. 813, Putting Veterans Funding First Act 
of 2013, the bill would extend the authority for advanced 
appropriations to all of VA's discretionary accounts effective 
in 2016. Such a proposal needs to be considered by the 
Administration as part of an across the government review of 
the advantages and disadvantages, not only for VA, but 
potentially for other departments and agencies.
    Only in the context of a broad review could the 
Administration offer an opinion on making such a change. We 
cannot, therefore, offer a position on H.R. 813 at this time.
    We very much appreciate the concern for veteran services 
reflected in the proposal and look forward to working with the 
Committee on how to best maintain the provision of benefits and 
services in light of fiscal uncertainty.
    In reference to H.R. 806, the bill would establish a 
permanent requirement for an annual report by the comptroller 
general on the department's medical budget submissions. 
Congress established a temporary requirement in the Veterans 
Health Care Budget Reform and Transparency Act.
    VA does not support making these reports permanent. VA has 
expanded the information presented in the budget justification 
volumes each year in order to be more transparent and to 
include additional information sought by Congress.
    VA believes this information, as well as continuing 
congressional oversight and engagement by GAO, will ensure the 
transparency of VA's medical budget process.
    In regards to the draft bill entitled Department of 
Veterans Affairs Budget Planning Reform Act, VA greatly 
appreciates the concepts in the bill as they have much in 
common with current VA initiatives.
    For instance, VA has initiated a planning, programming, 
budgeting, and execution framework modeled after similar 
efforts used in other Federal agencies.
    The department has embarked on its own quadrennial 
strategic planning process or QSPP, which we believe is 
consistent with the aims of the bill to formalize the strategic 
planning effort that will drive the five-year programming 
process and the near-term budget development.
    The final results of our first QSPP, a new VA strategic 
plan for 2014 to 2020, will be published with the President's 
2014 budget submission. We have already had productive 
briefings on the development of that plan with your staff, and 
will continue that dialogue as we finalize the plan.
    VA's QSPP includes an environmental scanning and analysis 
phase and has some of the same general goals as the Department 
of Defense quadrennial defense review, although we believe an 
attempt to replicate the scope of the QDR is not appropriate 
for the VA.
    The quadrennial veterans review proposal would also require 
a broader role for VA in developing a national veteran 
strategy. VA believes that its emerging work in futures 
analysis has the same intent as the QVR proposal, but a 
national veteran strategy would require broad analysis and 
policy development that would go well beyond VA.
    VA has also been working towards building a multi-year 
programming capability. The secretary signed the future years 
veterans' plan covering the fiscal years 2015 to 2019 on April 
30th, 2013 to document the results of our first true 
programming effort.
    While we believe the intent of section 2 of the bill will 
be met by our emerging PPBE process, we do have reservations 
about a mandate to publish specific dollar and FTE projections 
beyond the budget submission.
    We look forward to working with the Committee to address 
your oversight requirements in this process.
    Section 3 of the draft bill would also require the 
designation of a chief strategy officer. VA strongly supports 
the bill's intent as these areas that are listed in the bill 
are being performed by the Office of Policy and Planning.
    However, VA is hesitant to codify those responsibilities in 
statute because they may restrict our ability to tailor them as 
required in the future.
    Finally in regards to section 4, VA has conducted self-
evaluations and implemented numerous organizational changes in 
the office of the secretary and throughout VA.
    For example, organizations were established within my 
office, the Office of Policy and Planning, to build the same 
capabilities that this proposed legislation intends to codify.
    VA recognizes there is always more to do, but believes our 
existing planning processes are adequate to consider 
organizational changes.
    Thank you for the opportunity to comment on these three 
important bills. We appreciate the Committee's attention to 
these critical topics as we work together to better serve our 
Nation's veterans.
    Mr. Chairman, we look forward to your questions.

    [The prepared statement of Robert D. Snyder appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Snyder, for your 
testimony. We appreciate you being here with us today.
    You cited in your testimony a need for an across the board 
government-wide review of the advantages and disadvantages of 
advanced funding as outlined in Mr. Michaud's and my 
legislation.
    Needless to say, I am discouraged by that comment, and I 
guess from a little historical perspective, I want to know, 
what across the government review was done prior to the 
advanced funding for VA medical care being enacted.
    Mr. Snyder. Mr. Chairman, I am not familiar with what 
research was done before that legislation was submitted. I 
would be happy to take that and get that for the record.
    The Chairman. Well, it was well over three-quarters of the 
funding and it appears that there is an issue with the 
Administration to go forward with the rest of those dollars. 
And it is much smaller than what we are talking about today.
    So I am trying to figure out 86 percent of VA's 
discretionary budget is already advanced and now we are talking 
about 14 percent. So why the push back on 14 percent?
    Mr. Snyder. Well, Mr. Congressman, we certainly do 
appreciate the congressional support for the VA's advanced 
appropriations for medical care accounts. They have enabled 
multi-year medical budget planning and have ensured 
uninterrupted medical services for our veterans.
    However, the proposal to expand VA appropriations to all of 
our discretionary accounts does need to be considered by the 
Administration for its impact, the precedent that it sets on 
other agency departments.
    The Chairman. But isn't the precedent, I mean, isn't that 
already set? We have done that. I think we clearly say that 
funding for veterans' programs is separate and, I mean, it is 
protected from sequester.
    There are unique differences between the funding at the 
Department of Veterans Affairs and all other agencies within 
the U.S. Government. And I am trying to figure out why the push 
back on 14 percent.
    Mr. Snyder. Again, Mr. Chairman, that is a----
    The Chairman. Well, let me do this. Let me quote the 
President at the bill signing. Quote, ``At this very moment, 
the VA is operating without a budget, making it harder for VA 
medical centers and clinics to deliver the care our vets need. 
It is frustrating for VA employees and it is frustrating for 
our veterans who pay the price when budgets are delayed. This 
is inexcusable, it is unacceptable, and it is time for it to 
stop,'' end quote.
    So what about the sentiment the President expresses does 
not hold true for the other accounts?
    Mr. Snyder. Again, Mr. Chairman, I appreciate this 
Committee is eager to get a position on 813. But until the 
Administration conducts this across the government review, we 
cannot offer a position on it.
    The Chairman. So today it is not inexcusable, it is not 
unacceptable, or it is excusable and it is acceptable and we do 
not have to stop the budgetary issue. I do not know.
    I may be alone in what I am trying to figure out, but, you 
know, we took a huge swing at advanced funding for VA. And all 
of a sudden we are trying to protect this 14 percent.
    It is frustrating when there is no full-year budget to 
manage the claims processing system, a system that we have all 
talked about, the massive delays that exist within that system, 
the veteran cemetery system, you know, the information 
technology systems as we move forward.
    And just to hear, we have got to do a government-wide 
review of the impacts to look at the precedent which has 
already been set.
    But with that, Mr. Michaud, you are recognized.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    And thank the panelists for being here today.
    You had mentioned that the current strategic planning is--
you have adopted some other, I assume, the Department of 
Defense type model, but specifically as it relates to the VA, 
you have modified that proposal.
    My question is, are you, when you talk about PPBE, how are 
your current PPBE efforts being received across VA and within 
VA leadership?
    Mr. Snyder. Thank you, Congressman, for the opportunity to 
comment on that.
    In fact, we actually looked at DoD, DHS, NASA, and the 
National Oceanic and Atmospheric Administration for examples of 
models that we could look at. But as you mentioned, we do have 
to modify it to meet VA's needs, requirements, mission, and 
culture. And that is where we are working.
    We feel that we have matured the process. We have done one 
programming cycle, meaningful programming cycle. We feel it is 
demonstrating the value to internal stakeholders of the 
department and we believe that those stakeholders are bought in 
so that their momentum and support for PPBE will transcend this 
Administration.
    Mr. Michaud. You said you believe they are bought in. Are 
they widely and actively embracing the PPBE?
    Mr. Snyder. Yes, Congressman, they are. In fact, the 
reviews of our fiscal year 2015 budget proposal were based upon 
the programming decision memorandum that the secretary signed 
in April.
    Mr. Michaud. Okay.
    Mr. Snyder. So that has been reinforced.
    Mr. Michaud. To follow-up on Chairman Miller's comment on, 
in your testimony, you indicated that an across the board 
review, the advantages and disadvantages of advanced 
appropriation.
    Who within the Administration is looking at that across the 
board review?
    Mr. Snyder. Mr. Congressman, I appreciate that you are 
anxious to get our position on this. I would like to take that 
request for the record and get back to you.
    Mr. Michaud. So is the short answer no one is looking at 
it?
    Mr. Snyder. Sir, the short answer is I do not know----
    Mr. Michaud. Okay.
    Mr. Snyder. --and need to get back to you on the record.
    Mr. Michaud. Because if I remember correctly, the President 
actually supported mandatory funding during the campaign. And 
he made it clear that it would be in his budget when he 
presented it to Congress which he did not. It was because of 
the VSOs that we actually were able to get the advanced 
appropriation for VHA.
    So it is consistent with what he said he wanted to do, so 
that is why I am kind of curious on who in the Administration 
is, you know, taking this review, if it is really being 
reviewed at all, which I, quite frankly, doubt that anyone in 
the Administration is doing that.
    The other question that I have when you look at the, you 
know, the new framework and codifying some of the stuff that 
you are currently doing now, whether it is PPBE efforts or 
other areas, administrations change and if you look at what is 
happening over at VA recently with a lot of people resigning 
and retiring over at the department, my big concern is the fact 
that, you know, it is not going to be consistent.
    And as Members of Congress, you look at the Department of 
Veterans Administration, the second largest Federal agency in 
the Federal Government, and we have got to have something, I 
think, in writing as we deal with VA's budget that will give us 
the information that we need so we can analyze whether or not 
the VA is going in the right direction, number one, as well as 
whether or not we can look long term to make sure that our 
veterans are getting the appropriate services that they need.
    And so, that is why I am kind of a little concerned that 
you do not want to codify it in statute, so when it should be, 
actually you should be embracing that because you are not going 
to be there, you know, for the duration of VA and the needs for 
our veterans.
    And so, I would like you to elaborate a little bit more why 
you are kind of hesitant to codify this into statute because it 
looks like you are doing some of it right now anyway, but you 
are not going to be there forever.
    Mr. Snyder. Thank you for the opportunity to clarify our 
position.
    We certainly appreciate the Committee's intent behind this 
proposed legislation and your support for PPBE. Before 
codifying in statute, we just feel like we should do our jobs 
and codify in directive, internal directive, followed up by 
implementing guidance in a handbook.
    And before we could do that, we had to mature the process 
to a point that we could codify that. We have gone through 
enough now that we think we can write that directive and we 
think we need one more cycle of the programming effort before 
we can codify the implementing instructions in handbook.
    Again, we do think these efforts will transcend and have 
the buy-in to continue beyond the current Administration. It is 
not that we do not want to codify. We would like to codify 
ourselves before it is put in statute.
    Mr. Michaud. Okay. Thank you.
    I see my time has run out, but can you do it within three 
years, yes or no?
    Mr. Snyder. Yes.
    Mr. Michaud. Okay. Thank you.
    The Chairman. Mr. Snyder, you're accompanied by Ms. 
Tierney.
    Ms. Tierney, you're the Executive in Charge for the Office 
of Management and Chief Financial Officer. Would you be the 
person doing the government-wide review or would you be 
involved in it in one way or another?
    Ms. Tierney. Sir, I would participate in it, but this is 
the Office of Management and Budget will be doing the review.
    The Chairman. And how would you participate?
    Ms. Tierney. I would advocate the VA position.
    The Chairman. And that position is what?
    Ms. Tierney. I am not able to comment on that at this time.
    The Chairman. And again, now you just said, Mr. Snyder, 
that you couldn't have a position until you did a government-
wide review.
    Ms. Tierney, you just said your job was to advocate VA's 
position. If you--how can you advocate a position you don't 
have until after the review is done?
    Ms. Tierney. Thank you, Chairman.
    When the review starts, I anticipate that VA will be 
involved in that review.
    The Chairman. And you will be advocating VA's position?
    Ms. Tierney. Sir, yes, that is what I would do for VA, 
absolutely.
    The Chairman. And so VA will have a position before the 
review is complete?
    Ms. Tierney. Chairman, I believe that is correct, yes.
    The Chairman. Okay.
    Mr. Runyan?
    Mr. Runyan. Thank you, Chairman.
    I just want to not even ask a question, but give you a 
real-life scenario that I've experienced personally in my own 
district dealing with specifically the portion of the budget 
that is not advanced appropriated. I had an opportunity, a 
little over a year ago, to go to one of my CBOCs in the 
district, and going through the tour, empty room sitting there, 
had all been done, ready to take on a new X-ray machine which 
was already paid for and ready to be delivered, but the fact 
that the IT budget wasn't advanced appropriated, they were 
waiting on the wire to be ran down the wall to hook the X-ray 
machine to the computer.
    We talk about access to care and we are arguing whether we 
are going to advance appropriate 14 percent of the budget and 
you're holding up the ability for us to see seniors--see 
veterans and take care of them.
    I just wanted to point that out to kind of validate the 
Chairman's--the Chairman's position on this, and with that, 
I'll yield back.
    The Chairman. Ms. Brownley?
    Ms. Brownley. Thank you, Mr. Chair.
    I just--and thank you, Mr. Snyder.
    I wanted to sort of follow-up on your testimony vis-a-vis 
the VAO reporting and your statement about it--you don't 
support that it be permanent.
    Is there any aspect of the legislation that could be 
changed to garner your support on this particular legislation?
    Mr. Snyder. Thank you, Congresswoman.
    I think I'll defer to Mr. Flemming to respond to that.
    Mr. Flemming. Thank you, Congressman--woman for that 
question.
    We believe that the engagements that we have had 
historically with GAO have been productive and beneficial to 
VA, and we think that we benefit most when the reviews are of a 
focused nature.
    Ms. Brownley. Okay. And so you're saying that you would 
prefer to look at different issues within the report, is that 
what you're saying?
    Mr. Flemming. Congresswoman, I would say that----
    Ms. Brownley. I mean the question was how would you--is 
there any way that you would change it that would garner your 
support?
    Mr. Flemming. The reviews have--the temporary engagement of 
GAO with these reviews have been beneficial for VA. They have 
improved the transparency of the VA budget to include 
additional information that hadn't been included in our budget 
submissions and we continue to look forward to working with GAO 
on the--increasing the transparency of our budget submission.
    Ms. Brownley. And would you agree that in the past reports, 
correcting false assumptions in the calculations was beneficial 
to veterans' health care?
    Mr. Flemming. Congresswoman, I would say that the--as in 
the-- noted in the GAO reports, that medical care budgeting is 
as recognized by GAO as inherently complex from the long lead 
time that is required to develop our budget, and the budget 
reflects the best assumptions at the time we make that first 
budget.
    And through the iterative process, we have the opportunity 
to revisit those assumptions and with more recent experience, 
we are able to further refine and improve our budget estimates.
    Ms. Brownley. Thank you.
    Would you agree that with the draw down of forces in 
Afghanistan and we are going to have many more veterans 
returning, many more veterans returning with more medical 
issues probably in the history of our country, that some of 
those assumptions may change and the accuracy of those 
assumptions are very, very important in terms of anticipating a 
much greater number of veterans returning. I mean, I strongly 
believe that in some sense we are going to be tested about how 
well we serve our returning veterans coming back from 
Afghanistan with so many medical issues.
    Do you believe that that accuracy is important?
    Mr. Flemming. Thank you, Congresswoman.
    That is an excellent question, and, yes, I would say that 
we also agree that the assumptions regarding the different 
characteristics of the various cohorts of veterans whom we 
serve are very important, and we constantly seek to understand 
the characteristics of the returning combat veterans so that we 
can best prepare to deliver the services that they so need.
    Ms. Brownley. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Dr. Roe?
    Mr. Roe. Thank you, Chairman, for yielding.
    If I look around the room, there were five of us in this 
room: Mrs. Kirkpatrick, Sergeant Major Walz, myself, Mr. 
Michaud, Mr. Miller. We are here for the advanced props debate 
that we first started when, I guess, Chairman Filner and 
Ranking Member Buyer were sitting in those chairs over there, 
and I had to be convinced because all of my political 
background as a mayor and so forth had been on a yearly budget.
    I think it's been wildly successful. I talked to my local 
VA people at home and they loved the advanced appropriations, 
knowing what their budget is going to be for two years. And I 
was hoping that the VA would set the example and model for the 
whole government. I really think we ought to--many states do a 
bi-annual budget now--Texas is one that comes to mind--and it 
stops all of this silliness we do every--it seems like every 
other day here.
    We started the budget, again, in the fall and I think the 
VA--I can't imagine why you wouldn't embrace that. I can see no 
logic for your reason to oppose what the Chairman just talked 
about. I truly don't. When something's working, the VSOs wanted 
it and it turns out that they were absolutely right, it has 
worked very well. So that come September 30, a VA doesn't know 
whether they can hire a nurse and they know they can now.
    As Jon talked about, I mean how silly is that not having a 
wire ready because of a budget hiccup? So I would like to know 
why you wouldn't. I haven't heard a reason yet to just--with 
all of the positives that we know that have happened--and we 
had this debate, I recall it very well, right in this room and 
we went through on this advanced appropriation--so I'll turn 
the floor over to you.
    Mr. Snyder. Well, Mr. Congressman, thank you.
    Let me clarify, we are not stating that we are opposed to 
the bill. We are stating that we do not have a position today 
on the bill. And, again, this is--we do not have a position 
until we can--the Administration can complete this across-the-
government review. The implications that this kind of multi-
year appropriations would have on the rest of the government, 
besides VA. So, again, we are not stating that we oppose the 
bill.
    Mr. Roe. Let me make sure that I understood what you just 
said.
    You're not for it or you're not against it?
    Mr. Snyder. We are not taking a position today, sir.
    Mr. Roe. Okay. And the reason you're not taking a position 
when you know that 86 percent of it works just fine is because 
of what?
    Mr. Snyder. The Administration needing to do an across-the-
government review, what those implications mean to other 
programs and other agencies besides the VA.
    Mr. Roe. And when will that be due? When will we have that 
information? Will it be in my fourth or my fifth term? And I am 
in my third term now.
    Mr. Snyder. Sir, I know this Committee is very eager to get 
our position, but I am not in a position to comment on--to 
speculate on when that timeline might be done for the review.
    Mr. Roe. So it may be infinity? We don't know when it will 
be?
    Mr. Snyder. Sir, I do not know.
    Mr. Roe. I yield back.
    The Chairman. Mrs. Kirkpatrick?
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    Mr. Snyder, as Dr. Roe mentioned, I was on the Committee in 
2009 when we authorized the advanced appropriations and it was 
supposed to be a paradigm shift for the VA. And please keep in 
mind that every Member of the Committee wants the VA to operate 
as efficiently and as effectively as possible because that is 
what our veterans deserve.
    And so you're here today to tell us that you can't tell us 
the advantages or disadvantages of the advanced appropriation 
paradigm shift; is that correct?
    Mr. Snyder. Congresswoman, let me affirm that we also want 
to work as efficiently and effectively as possible, and we 
can't comment on the impacts that the multi-year appropriations 
has had on our medical care accounts. I can defer to Mr. 
Flemming or Ms. Tierney and they can comment.
    Helen, did you want to comment on the effects of the multi-
year appropriations?
    Mrs. Kirkpatrick. Excuse me, we--we realize that, but it's 
that other--that 14 percent that the Chairman talked about that 
you're not willing to go forward on, and it is puzzling.
    And so I just want to know, are you not seeing improvements 
in that area?
    Mr. Snyder. We have seen improvements.
    We are very appreciative of the multi-year appropriations 
that we have for our medical accounts. It does enhance our 
ability to plan for our medical budgets. It does ensure 
uninterrupted services for our medical accounts. But we cannot 
take a position on the extending of those authorizations or 
appropriations to our other discretionary accounts at this 
time.
    Mrs. Kirkpatrick. Until you do the government-wide review.
    And whose decision was that, that there had to be a 
government-wide review before the VA could take a position?
    Mr. Snyder. That is the Administration's position, ma'am.
    Mrs. Kirkpatrick. The VA Administration--the Presidential--
I mean--who--what do you mean by the Administration?
    Mr. Snyder. I really can't get into the internal decision-
making, but we are--have been required to take a broad view, a 
government-wide view of what the implications are on these 
changes for the government at large.
    Mrs. Kirkpatrick. Well, maybe you can answer this for me, 
what exactly do you mean by a government-wide review? Does that 
mean every--every governmental agency in this country has to 
report? I mean what exactly does that mean?
    Mr. Snyder. The Federal Government. The Federal agencies 
and departments will be involved in this review.
    Mrs. Kirkpatrick. Can you tell the Committee which ones?
    Mr. Snyder. Ma'am, that is really beyond my scope of 
expertise and responsibility. I will be happy to take that 
question for the record.
    Mrs. Kirkpatrick. Well, it is a little frustrating, Mr. 
Snyder, and please excuse my frustration, but I thought the 
whole point is that we are able to serve our veterans, and as 
Dr. Roe said, how long do we have to wait for this?
    But let--let me just condense it in terms of the VA. Has 
the VA started its review, because I am assuming that the VA is 
going to have to report to OMB as part of this government-wide 
review.
    Suppose agencies haven't even started this process. How 
long is this going to take?
    Let me just condense the two, what is the VA doing in terms 
of their piece of this review?
    Mr. Snyder. Congresswoman, until this larger Administration 
review is done, I cannot comment.
    Mrs. Kirkpatrick. I am sorry, Mr. Snyder, but aren't you 
part of the larger Administrative review?
    Mr. Snyder. We will be.
    Mrs. Kirkpatrick. Okay.
    Mr. Chairman, I am frustrated, so I guess I'll--let me ask 
one other question.
    In terms of your--your strategic planning and--and 
programming, you said that you modeled that after other 
agencies. Can you tell us what agencies you used to model that?
    Mr. Snyder. We took lessons learned from other agencies--I 
wouldn't say that we modeled it--we took the lessons learned 
from various agencies including DoD, DHS, NASA, and others, but 
we really got to modify this to fit the VA. And we found that 
this is more of a change management or a culture change, as 
opposed to a technical solution.
    So we've taken lessons learned, pieces from various 
agencies--I think they do well and don't do well--but we are 
really trying to adopt something that works in our environment 
and the three Administrations that we support.
    Mrs. Kirkpatrick. Well, to end on a positive note, I 
commend you for that.
    And thank you, Mr. Chairman, I yield back.
    The Chairman. I think for the Committee's knowledge, this--
this bill that everybody seems to be focusing on right now, in 
addition to the other two pieces of legislation, it was filed 
in February.
    The Senate--there is a Senate companion that's out there 
and VA testified before the Senate two months ago on the bill, 
and so I think what's frustrating to all of us is that we are 
still having witnesses come to us and tell us there is no 
position.
    To further expound, we are talking about a, you know, 
roughly, $150-plus billion dollar budget. This bill deals with 
about $8 billion dollars and for some reason, there is a hang-
up and we are going to find out what it is from these witnesses 
or somebody.
    I can't for the life of me figure out why they would not 
want to jump at the opportunity to expand on what has already 
been described by many here and many veteran service 
organizations and the Department probably itself, has been 
widely successful that we did the two-year advanced 
appropriations.
    So I am--I am just as frustrated, Mrs. Kirkpatrick, as you 
are, but we will continue to prod and ask questions.
    Mr. O'Rourke?
    Mr. O'Rourke. Thank you, Mr. Chairman.
    And I appreciate your convening this hearing and the work 
that you and the Ranking Member have done, especially your 
bringing these issues to our attention and I fully support H.R. 
813. It makes a lot of sense.
    I have the sense that you support it, too. I mean the 
logical conclusion of some of the things that you have said 
about the 86 percent of the VA's budget that is working so well 
would lead me to believe that you think this would be a good 
thing for the rest of the VA, the remaining 14 percent, but 
that you are prevented from saying so, unfortunately, by the 
Administration.
    So, I want to--I want to--we clearly have your unclear 
statements on 813 that you can't take a position.
    On 806, you are supportive?
    Mr. Snyder. No, sir.
    The VA does not believe that those provisions need to be 
made permanent in statute.
    Mr. O'Rourke. And the VA Budget Planning Reform Act, the 
draft bill, you said you agreed with the intent and the goal, 
but had some problems with some of the means and methods. Are 
there any improvements to that, that you could recommend that 
would lead you to be supportive of it?
    Mr. Snyder. Again, the main issue with the proposed bill is 
that we think many of those provisions need to be codified by 
directive and internal documentation, and another--at least one 
more cycle of PPBE conducted within the Department before we 
try to codify things in statute.
    PPBE within the VA and the various processes are at various 
places in maturity and we think we need to level that out and 
get more maturity in all phases before that is documented in 
statute.
    Mr. O'Rourke. And then for you or for Ms. Tierney, to 
follow up on Mr. Runyan's anecdote about the facility that has 
everything except for the cabling or fiber that needs to be run 
to connect it, how--how do you resolve that disconnect right 
now in the VA when you have the advanced appropriations for so 
much of what VA needs and you're dependent upon something in 
that other 14 percent that is not there right now?
    How--how widespread are the problems that Mr. Runyan 
highlighted with his--with his anecdote and how do you resolve 
them?
    Ms. Tierney. Thank you, Mr. Congressman.
    There are, indeed, sometimes disconnects with having 
advanced appropriation and having other parts of the 
organization under a CR. When the budget is eventually passed, 
we are able to do the new work. We are able to do--continue 
doing the same work that we did the year before under a 
continuing resolution, but it does make for some disconnects.
    Mr. O'Rourke. And the last thing that I'd say is I've only 
been here for a little over six months and I have found this 
Committee to work in a very bipartisan fashion, in a very 
supportive fashion of the VA, and I think we all--all of us 
want to get to the same place and deliver the best quality care 
and service to the veterans who served this country.
    And I know that you do and I think you know that our 
Committee does, and so I think we all want to work 
cooperatively, but it is obviously very frustrating and very 
difficult when we can't get a clear response on an effort made 
by the Chairman in this Committee to improve your ability to 
deliver those services to the veterans. So, hopefully, we can 
rectify that soon and I want to continue to work cooperatively, 
but this is, as you've heard from everyone, a very frustrating 
experience, so, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. O'Rourke.
    And I also would like to clarify the record. My comment 
about eight billion over ten, it's actually eight billion for 
one year.
    Mr. Walz?
    Mr. Walz. Well, thank you, Mr. Chairman and Ranking Member. 
Thank you all for being here.
    Advanced appropriations was a cause of mine for many years. 
I am proud of the work that we did on it and I think Dr. Roe 
was right; there was some skepticism here because the charge 
leveled was government on autopilot and we wanted to be 
concerned that that wasn't the case and we wanted to make sure 
that we got it right.
    I guess my frustration, like I stated--there is drama here 
today that doesn't need to be drama. That is very frustrating 
and I am trying to get at it and I understand the constraints 
you're under from the Administration's position.
    If you could take back anything, they don't need drama in 
this. We are with you. We are there. We are getting this. We 
want to help.
    If there are concerns about this final 14 percent--and Mr. 
Runyan's case is exactly right and I've heard that from other 
medical facilities--having the two disconnected is just plain 
stupid and it should be in here, one way or another.
    So, I get it that you're not going to be able to tell us. I 
get it that you're going to say that, but we've got 1,300 
Federal and State programs helping veterans. We've got 40,000 
non-profits in this country. It makes sense to have a rational 
coordinated plan to use our resources wisely to deliver care 
for veterans; that is all we are trying to get at.
    So I won't ask where, I know that you're not going to be 
able to answer, but if you could take back a message. There is 
no need for drama in the service of veterans, help us figure 
this one out.
    I yield back.
    The Chairman. Thank you very much, Mr. Walz.
    Mr. Runyan, did you have any other questions?
    Mr. Michaud?
    Mr. Michaud. Just one.
    So, run us through the process, Mr. Snyder. When you come 
before our Congress, you have to submit your testimony to OMB; 
is that correct?
    Mr. Snyder. That is correct, Mr. Congressman.
    Mr. Michaud. Does OMB have to approve your testimony? Mr. 
Snyder. They do.
    Mr. Michaud. And if they don't, do you have to modify it to 
their liking?
    Mr. Snyder. That is correct.
    Mr. Michaud. Okay. Mr. Chairman, it might be worthwhile 
maybe in September, to haul OMB in here and see how they are 
coming along with their big vision, how they want the 
government to look at this advanced appropriation, because I am 
sure by September they will have a lot of progress.
    And maybe we ought to get the timeframe when they started 
it and where they want it to move forward, because I think Tim 
Walz, Congressman Walz is absolutely right. Why OMB does not 
want this is just amazing since it is a small portion of VA 
budget, and if this truly is a top priority of the President, 
the First Lady, then I don't know why OMB is taking a contrary 
position of what they are at least saying publicly about 
supporting veterans.
    So, hopefully the Administration will get on the same page, 
and whoever it is over at OMB that wanted the testimony to be 
changed, if it was, in fact, changed, I think we ought to find 
out and see where they are coming with this whole process.
    The Chairman. Thank you very much.
    Members, any other questions?
    To the witnesses, thank you so much for being here with us 
today.
    Some of us probably will have some questions that we want 
to submit to you as a follow-up. We would appreciate a timely 
response. You may or may not be aware this Committee now has a 
site on its Web site, posted ``trials and transparency.'' It 
specifically deals with the almost 100 requests that we now 
have from this Committee forwarded to the Department of 
Veterans Affairs that we have yet to get an answer for.
    And, again, I think a timely response is within 30 days. 
So, expect if we don't get a response that you will join your 
cadre of friends at the central office as stars of ``trials and 
transparency.''
    Thank you. You are excused.
    And as they are moving, if we could ask the second panel to 
come forward.
    Mr. Chairman. Okay. Thank you to our second panel of 
witnesses. And I am going to run through this rapidly, but I 
want to thank you for being here today and on behalf of the 
Independent Budget co-authors, we are going to hear from Carl 
Blake with the national--the National Legislative Director of 
the Paralyzed American Veterans--Veterans of America. Mr. Blake 
is accompanied by Adrian Atizado, the Assistant National 
Legislative Director at DAV; Ray Kelley, the Director of 
National Legislative Service for Veterans of Foreign Wars; and 
Diane M. Zumatto, the National Legislative Director of AMVETS. 
We are also going to hear from Mr. Louis Celli, the Director of 
the National Legislative Division of The American Legion. With 
that, again, I say thank you very much for being here.
    Mr. Blake, you are recognized for five minutes.

   STATEMENTS OF CARL BLAKE, NATIONAL LEGISLATIVE DIRECTOR, 
 PARALYZED VETERANS OF AMERICA, ACCOMPANIED BY ADRIAN ATIZADO, 
     DISABLED AMERICAN VETERANS; JOY ILEM, DEPUTY NATIONAL 
 LEGISLATIVE DIRECTOR, DISABLED AMERICAN VETERANS; RAY KELLEY, 
  DIRECTOR, NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN 
WARS; DIANE M. ZUMATTO, NATIONAL LEGISLATIVE DIRECTOR, AMVETS; 
LOUIS J. CELLI, JR., DIRECTOR, NATIONAL LEGISLATIVE DIVISION OF 
                      THE AMERICAN LEGION.

                    STATEMENT OF CARL BLAKE

    Mr. Blake. Thank you, Mr. Chairman.
    Before I begin, Mr. Michaud, I would like to say if you get 
OMB on a panel here in front of you in September, we would 
really like to sit on the dais with you because I am sure we 
have as many questions as you do.
    On behalf of the co-authors of the Independent Budget, 
AMVETS, DAV, PVA, and VFW, I would like to thank you for the 
opportunity to be here to testify today.
    First, let me express our sincere thanks to you, Mr. 
Chairman and to Ranking Member Michaud, for taking the lead on 
this issue of funding for VA and introducing H.R. 813. It 
certainly makes sense.
    We've seen the benefits that have been reaped by the 
Veterans Health Administration by being removed from political 
bickering and partisan fights that have basically hamstrung the 
ability to do the work of the Federal Government or of the 
Congress.
    As such, the Independent Budget wholeheartedly endorses 
H.R. 813 and we are committed to work with you and with the 
Senate to see this through to final enactment.
    Similarly, we would like to thank Ms. Brownley for 
introducing H.R. 806, that would make permanent GAO reporting a 
requirement. This legislation actually reflects an explicit 
recommendation included in the Independent Budget for fiscal 
year 2014 and as such, we wholeheartedly endorse that as well.
    With regards to the draft bill, the Department of Veterans 
Affairs Budget reform--planning Reform Act of 2013, I would 
like to thank you, Mr. Michaud, for placing an added emphasis 
on the need for meaningful strategic planning with the VA; 
however, at this time, the IB has no formal position on 
legislation and we do have some concerns that we outline in 
greater detail.
    First, we are not yet certain that a strategic planning 
framework designed specifically for the Department of Defense, 
the QDR, and similarly, for the Department of Homeland Security 
and the QHS--or QHR, I am sorry--would be appropriate for the 
VA. I think the VA sort of outlined that concern as well.
    There are obviously fundamental differences between the 
missions of the Department of Defense and the VA and also 
between DHS and VA. They raised concerns about whether VA 
should be required to use the same planning structures and 
methods designed specifically to evaluate DoD's future roles in 
missions. And while worldwide threats and missions associated 
with those threats are always evolving, requiring constant 
review and re-evaluation by DoD and DHS, the fundamental roles 
and missions of the VA and veterans' policy in general rarely, 
if ever, need to shift so quickly or dramatically based on 
external events or influences.
    And while Presidential elections may often lead to large 
swings in national security policy, our Nation's longstanding 
commitment to veterans has remained clear and steadfast for 150 
years.
    Second, it's not clear whether the creation of a future 
year veterans' program will lead to either more transparent or 
more accurate budgets or appropriations. Although the QDR and 
the QHR are readily available online, it does not appear that 
the FHDP or FHSP--HSP are similarly available, calling into 
question the transparency that might be produced by this 
legislation.
    In fact, the VA just testified and included in their 
testimony that they had submitted this year their first FYVP. 
Where is it? Has the Committee seen it? I know we haven't seen 
it, so there is already a concern about transparency and doing 
a future year veterans' program.
    I know the intent of the legislation, I think, is to 
overcome that hurdle and if we can be convinced that that were 
to be the case, then that would certainly move us towards the 
area of support for the legislation, but we still stand with no 
position at this point.
    Similarly, there are significant unanswered questions 
concerning the role of the Office of Management and Budget, 
which we've already hashed out in the previous panel. Since the 
draft bill requires that the Administration's budget be 
consistent with the FYVP budget estimates, would OMB have a 
direct or indirect ability to revise or constrain the budget 
and appropriations levels contained in the FYVP?
    In setting out policy guidance to the individual program 
offices, the secretary is required to inform them of resource 
levels projected to be available as they make their budget 
estimates.
    Would these levels come directly or indirectly from OMB? We 
already know that on some level that is what happens, but I'm 
not sure that this process would necessarily draw that out even 
further.
    Until these questions and the ones that are included in our 
written statement are better addressed and satisfactorily 
answered, we will withhold our support for the legislation.
    That being said, Mr. Michaud and Mr. Miller, we certainly 
appreciate the extreme amount of time that your staffs have 
spent with us over the last couple of weeks in hashing out this 
legislation in particular, and helping us get a better 
understanding of the long-term intent of the legislation. And 
we feel confident that if we continue to work together, we can 
come to a final agreement that would probably lead us in the 
direction of some level of support, but we would still like to 
get some better answers to our questions.
    That being said, I'd be--we would be happy to answer any 
questions that you might have.
    Thank you.

    [The prepared statement of Carl Blake appears in the 
Appendix]

    The Chairman. Thank you, Mr. Blake.
    Mr. Celli, you are recognized for five minutes.

                STATEMENT OF LOUIS J. CELLI, JR.

    Mr. Celli. Thank you.
    America's veterans deserve sufficient, timely, and 
predictable funding for VA programs. We would certainly like to 
echo the Chairman's opening comments when he described how the 
entire country has watched the budget squabbles and territorial 
land fighting of Congress over the last several years.
    We are proud to say that this Committee has steadfastly 
risen above the fray and maintained a bipartisan spirit of 
cooperation between the veterans--with the veterans--with 
veterans' programs still suffering from the specter of 
government shutdowns, sequestration and a bitterly divided 
budget landscape that has led to stopgap continuing resolutions 
in the place and passage of real budget legislation.
    Chairman Miller, Ranking Member Michaud, and distinguished 
Members of this Committee, on behalf of Commander Koutz and the 
2.4 million members of The American Legion, I thank you and 
your colleagues for the work that you do, and especially your 
bipartisan dedication for getting it right, for the American 
veterans and their families.
    My remarks this morning reflect the overview of The 
American Legion's full statement for the record, which is 
provided as part of our witness testimony. When Congress passed 
the Veterans Health Care Budget Reform and Transparency Act in 
2009, the intent was quite clear, ensure sufficient, timely and 
predictable funding to care for those who have worn the 
Nation's uniform. The key improvements was the authorization of 
Congress to approve investments in medical care for veterans 
one year in advance to allow VA to more effectively plan for 
the future and ensure veterans would get the quality care that 
they have earned. And The American Legion, together with our 
VSO partners, aggressively worked with Congress to make this 
happen.
    Over the past couple of years, The American Legion has come 
to recognize how important it has been for VA to be included in 
advanced appropriations and certainly sees the wisdom of this 
Committee to include the remaining VA accounts in this process.
    We also want to be clear about one thing. The advanced 
appropriation does not insulate VA or veterans from the total 
effects of sequestrations as commonly thought. Future VA budget 
authorizations are still subject to budget caps in accordance 
with the Budget Control Act, which could reduce the assistance 
that we are able to provide our veterans and disabled veteran 
population.
    So The American Legion strongly supports the passage of 
H.R. 813, as it takes yet another important step toward 
protecting the promise this country has made to our Nation's 
veterans, to care for those who have borne the battle.
    While The American Legion is unable to take a formal 
position regarding the draft legislation, the Department of 
Veteran Affairs Budget Planning Reform Act of 2013, because the 
proposal is too new for us to have had the opportunity to 
evaluate it through our commission process, and, therefore, do 
not have a resolution that speaks to this initiative.
    I'd like to touch on a couple of the provisions that we've 
highlighted in our testimony and that will be the main topic of 
our discussion among our voting members. The American Legion is 
a conservative organization, fiscally conservative 
organization, that firmly believes in a strong planning 
process. We think that the fundamental reason that this 
legislation was introduced is sound. That much we support.
    When VSOs hear a proposal for yet another commission, I 
have to be honest with you, we groan. Because we work day in 
and day out with your Committee staff members and commissions 
always seem to seek to pull in folks that aren't in the daily 
process of working with you and we wonder where do we fit in. 
So those are one of the concerns that we have. And we just want 
to make sure that we are not developing yet, another paper 
tiger, as we've discussed with your staff. So these are some of 
the things that our members are going to be discussing.
    I want to thank you for inviting The American Legion to 
share our thoughts on these positions and these important 
pieces of legislation. We definitely look forward to working 
together, and we, too, are very frustrated with the VA's 
position of not being able to support advance appropriation. 
And if we look back at history, we will see that the first time 
advanced appropriation was discussed in this chamber, VA also 
took no position, yet they seemed to really enjoy the benefits 
of that today.
    With that, I yield back the remainder of my time. Thank 
you.

    [The prepared statement of Louis J. Cell, Jr. appears in 
the Appendix]

    The Chairman. Thank you very much for your testimony.
    I'll give myself five minutes for questions.
    And if I recall, the President, actually in the '08 
election, he ran on advanced appropriation. So there, very 
clearly was a position being taken by this current 
Administration--albeit he was a candidate at that time-but I 
don't remember near the hesitation and most of you at the table 
were here during that time.
    Does anybody remember the kind of hesitation that we heard 
from the first panel? Anybody?
    Mr. Blake. Maybe from a Member of Congress, but certainly 
not from the Administration.
    The Chairman. Mr. Blake, you may recall that when the 
original advanced appropriation bill made its way through the 
Congress, that both the IT and medical research accounts were 
included in the House-passed version of the legislation. Your 
testimony regarding these two accounts reaffirms that position.
    Explain to us why these two accounts, in particular, 
compliment the existing medical care accounts.
    Mr. Blake. Well, I think Mr. Runyan clearly sort of laid 
out the importance of IT and its role as it relates to health 
care, particularly with the way that VA delivers state-of-the-
art health care with its electronic health record and 
everything now. And absent, some of the structures in place as 
new health care services come online, obviously that could be 
negatively impacted on the IT side.
    On the research side, you have a lot of overlap where 
providers are also researchers and a lot of the work, there is 
a lot of crossover, and so you can have an impact on their 
daily activities based on the fact that while--while they 
deliver care, in some settings they also do research.
    So I think--I think, honestly, and we are all on record, I 
think, as saying that it makes no sense for all of VA not to be 
an advanced appropriated--if they could just get it out of the 
political wrangling that is going on every single day here on 
the Hill.
    The Chairman. If anybody--but, again, Mr. Celli, Mr. Blake, 
you can comment from a facility standpoint. I think a strong 
argument can be made that with advanced funding of construction 
projects, better planning could occur and contracts could be 
awarded in a timely fashion with the potential result of being 
on time, being on budget, and I think that would be a welcome 
change in--in this process, but what are your thoughts on the 
construction side?
    Mr. Kelley. It could absolutely be very helpful. I don't 
know if it's going to make them on time or under budget or on 
budget; it would be setting them in the right direction, 
though. There is continual overlap. There are layers of these 
construction projects that can get delayed because of budget 
stops. It's very important for construction to be advanced 
appropriated.
    Mr. Celli. Now, I would also like to add that the VA saw 
fit to try to project what the rest of the Federal Government 
was going to do with regard to advanced appropriations, but 
with regard to them being able to establish contracts and work 
with the small business community in an economic climate that 
is just now trying to get back on its feet, the impact that the 
VA has when it comes to contracting, especially through 
construction, there are billions of dollars that filter into 
our communities, and if those dollars can't be counted on by 
small businesses that are in the business of working to supply 
the government with their needs, then they can't count on 
keeping their businesses viable and prosperous either.
    So the advanced appropriations gives the VA the opportunity 
to be able to plan for these projects, to be able to tell the 
contractors that we are going to start a particular project on 
a date that we've agreed on and then get them paid in a timely 
manner.
    The Chairman. Let me read you just a real quick portion of 
the President's signing statement.
    ``The new medical equipment that isn't purchased. The 
construction of new facilities and clinics that isn't started. 
The new programs for medical care that are delayed.'' So even 
the President, I think, in his signing statement--albeit, the 
construction side did not apply--I think he is agreeing that 
that is a good thing, that we would advance and move in that 
direction.
    Mr. Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman.
    In my closing--opening statement, I mentioned change is 
hard and not everyone will be comfortable with the changes, I 
know, in the draft legislation, and I think there is also some 
misconception about it.
    Mr. Celli, you mentioned we will need another commission. 
It's not a commission. It's--and I am glad that The American 
Legion is looking at fiscal matters because that is what the 
whole idea behind this is, is to force VA, Members of Congress, 
the VSOs, to look forward, to plan ahead, so that we will not 
be wasting money and that is the whole idea, but it's not a 
commission.
    You also mentioned, Mr. Celli, the concern about the VSOs 
and what role they play. Actually, this legislation is very 
clear. VSOs will--are called out specifically for their 
participation in this process, but it's not only the VSOs and 
it shouldn't be only the VSOs as it relates to this process. So 
I know that change is hard.
    Mr. Blake, you had mentioned in your opening statement 
about DoD. The legislation does not require the DoD process for 
VA. And as you heard, the VA actually does a similar process--
it's not the model that DoD and DHS has--but it follows some of 
the areas that they're focused on, that long-term planning that 
has to happen. So it doesn't require them, and it shouldn't 
require them, to follow the DoD, the DHS process.
    You had mentioned also, Mr. Blake, when you look at future 
year program for other departments that are available for 
Congress, both DoD and DHS are classified and that information 
is not public. So the whole idea behind this is to force VA, 
Congress, and veterans' organizations, and other groups to look 
forward in their long-term planning.
    And I know that change is hard, and I would encourage each 
of you to look at what the actual bill, draft bill, does; not 
what you anticipated that it might do, because it is something 
that hasn't been done before. It's a new approach as it relates 
to the Department of Veterans Administration. But the 
Department of Veterans Administration, it's the second largest 
Federal agency and we got to do a better job in making sure 
what finite resources that we have to spend to provide the 
services for our veterans and their families, that that 
planning is in place and that hasn't been done before.
    Unfortunately, we have been dealing with crisis mode after 
crisis mode, whether it's dealing with the Veterans Health 
Administration, now dealing with the veterans' benefit side, as 
far as the backlog, and the whole purpose of this legislation 
is to codify some of the stuff that VA is currently doing, but 
also to look at that long-term prospective of how we are going 
to take care of our veterans and their families long-term, and 
it really focuses on thinking outside the box, and that is what 
it's all about.
    So I would encourage each of you to really look at it, to 
work with our staffs as we move forward in this regard, and to 
think long-term, as far as where we are going to go to help 
support those who wore the uniform protecting this great Nation 
of ours.
    Now, I know that the realm of budgeting might not be a sexy 
topic because we just look at the bottom line, whether they got 
the money or not, but we do have to do a much better job in 
moving forward in this regard and provide the services that we 
need for our veterans.
    And just hearing the two testimonies earlier, there is some 
misconception about what it does, and what you both said as far 
as the commission or DoD process is not actually what the bill 
does and that is why I encourage you to continue to work with 
our staff so that we can move forward.
    And I appreciate all that your individual organizations are 
doing to hold the VA accountable, as well as Congress 
accountable. I look forward to working with you as we move 
forward with the Chairman's legislation, with the advanced 
appropriation for all VA because I think it's absolutely the 
right way to go, and I feel confident that my colleagues will 
agree so also.
    As far as OMB, I can't wait to see what they have to do, 
and I agree with Mr. Blake, if we do have OMB in here, I 
suggest we might want to put them under oath as well so we--so 
we can hold them accountable for what they are saying before 
this Committee.
    So with that, Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. Thank you very much.
    Dr. Roe, with your indulgence, I would like to recognize 
Dr. Wenstrup.
    Oh, Dr. Roe?
    Mr. Roe. I thank the Chairman, and thank you all for being 
here.
    And I think the last paragraph of the testimony here from 
Mr. Blake, I think pretty much says it all. We believe that our 
Nation has no higher obligation than to ensure that the men and 
women who have served in our Armed Forces receive all the 
benefits and services owed to them in a timely manner. This 
legislation will help guarantee that promise is kept. I think 
that is all that needs to be said.
    And I appreciate, first of all, all of your service, and 
then the support that you've given. I think--as I said just a 
minute ago, I think that the VSOs that pushed for this, and 
four years, ago, I guess, when we had this debate in this very 
room, I think it's been a resounding success. Everything that 
I've heard at home from our local VA Medical Centers has been 
very positive, and I can't imagine why we wouldn't--and Mr. 
Michaud has said this and the Chairman has said this, why we 
wouldn't just do this.
    And I told the secretary, I said I want you to be sure that 
this works. I remember having the conversation with him because 
I think this can be a model for the entire Federal Government. 
It's so big now, why don't we do a lot of advanced props over 
two years and then take the second year we are here and fine 
tune these things and get it right, instead of having to go 
through the same process again and come 30 September, you have 
to shut something down because we haven't done our job here.
    And think about all this CR and all this nonsense that 
we've done, the one shining part of the budget's been the VA 
because it hasn't been affected. The money's been appropriated 
and ready.
    So I don't have any questions. I will certainly yield to 
you all, if you want to comment about it, but I appreciate your 
testimony and your support for this--for now four years that 
I've been here.
    The Chairman. Ms. Brownley?
    Ms. Brownley. Thank you, Mr. Chair.
    I just wanted to take the opportunity because I haven't 
stated so far how much I support your bill today, H.R. 813, and 
that is why I am a co-author of the bill. And I certainly 
believe it's the right thing for us to do at this moment in 
time.
    And of course I am focusing a little bit on H.R. 806 
because I want to get the bill right and would love to work 
with you on that to make that happen, and I think it can be an 
important compliment to the direction of H.R. 813.
    So, having said that, I will continue to question around 
H.R. 806 which leads me to ask a question to Mr. Blake.
    And Mr. Blake, I appreciate your testimony and support of 
H.R. 806, and I was just wondering if you could expand a little 
bit on your testimony and just inform us a little bit about why 
the PVA supports making the GAO review permanent.
    Mr. Blake. Thank you, Ms. Brownley for that question.
    First, it's not just PVA. The Independent Budget, as a 
larger entity of the four organizations endorses the 
legislation. As I mentioned earlier, it's a specific 
recommendation in this year's Independent Budget. You know, I 
think we've seen--I can make an argument that we wish GAO would 
go even a little farther in their reporting when they've done 
their reports on the advanced appropriations.
    But every year that they've provided a report, they've 
clearly identified where there were deficiencies that existed. 
The most glaring has been in non-recurring maintenance which 
seems like a small and unsexy thing, but it has a direct 
upwards connection to medical care because it's still in the 
medical facilities portion and it drives a lot of the larger 
funding assumptions and plans for VA, and then, ultimately, it 
has an impact on construction and things like that.
    So GAO has dug in and found some things and brought to 
light issues that the VA--that we would probably never seen 
otherwise, or we might have questioned without any real solid 
evidence, so they provided us with an opportunity, and we 
believe--it seemed like to me, the VA said--and I know it's in 
their testimony--that they have had benefit from having an 
interaction with GAO and this reporting requirement.
    So if they reap the benefit from it, I'm not sure that 
there is a downside to continuing to do it. But apparently, 
they have--they reaped the benefit, but they don't want to do 
it anymore, at least that is the way their statement seemed to 
suggest. But from our perspective, it's certainly something 
that should be continued.
    Ms. Brownley. Thank you.
    And Mr. Celli, in your testimony I--I'm not sure that you 
stated it, but I think in your written testimony you noted that 
The American Legion has really no official position on H.R. 
806.
    And so I am just curious to know, has the Legion reviewed 
the GAO reports and did the Legion find the reports useful in 
the past?
    Mr. Celli. Thank you, Congresswoman Brownley.
    And we have reviewed the GAO reports. We do find them to be 
a benefit, and the reason that we weren't able to take a 
position at the time is because this is such a new piece of 
legislation that we haven't had a chance to put it before our 
commission to get a resolution. As a resolutions-based 
organization, we carry forth the will of our membership, as do 
you with your constituents. I can tell you that, again, as a 
predominately, fiscally conservative organization, we like good 
things. The GAO report is a good thing. VA being required to 
look ahead to spend their money in a prudent manner, to be able 
to plan for good programs is a good thing. The American Legion 
is always going to support that.
    When it comes to officially supporting the bill, we need to 
run it through our commission, get a resolution on it, which we 
have our annual meeting coming up in the end of August and I am 
sure at that time, a lot of the bills, that we weren't able to 
take positions on formally will then be codified and we will be 
able to tell you one way or the other where we are going to 
come down on that.
    Ms. Brownley. Thank you, sir.
    And I yield back the balance of my time.
    The Chairman. Mrs. Kirkpatrick?
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    My question is really--I want to hear from each member of 
the panel, and I thank you for being here today and thank you 
for your service and commitment to our veterans.
    Regarding the VA's current budget submissions, do you feel 
that there is sufficient detail for you to adequately represent 
your memberships? And let's start here on the right-hand side 
and then just go over to the left. I would just like to hear, 
specifically, to--to whatever groups that you are serving.
    Ms. Zumatto. Thank you for the question--sorry--I am not 
sure that I quite understand what it is that you're looking 
for, however.
    Mrs. Kirkpatrick. Do you feel that the current budget 
submissions by the VA has adequate detail or would you 
recommend that there be additional items of detail put into the 
current budget submissions?
    Ms. Zumatto. I would say that budget is not my area of 
expertise as far as the Independent Budget body is concerned, 
but just from my point of view, it does seem that we are 
provided with quite a bit of information. I don't know, you 
know, what is not being included, per se.
    So, at this point, I would just say that, you know, we get 
quite a bit of information and we--we appreciate that, and we 
just follow every--you know, everything that is happening. We 
know what the issues are and we hope that, you know, that the 
budget is going to be able to meet the needs of our veterans.
    Mrs. Kirkpatrick. Mr. Celli?
    Mr. Celli. Thank you.
    And that is an excellent question because the budget is so 
massive that I don't think that there is any single 
organization, nonprofit organization, veterans' service 
organization, that can fully analyze the complete budget. So 
what we do is, we end up looking at those portions of the 
budget that apply to the programs that we are intimately 
involved in.
    With respect to that, there is always going to be a level 
of detail that we are going to want to ask more questions on 
and we've been pretty successful in working directly with the 
program offices of the Department of Veterans Affairs to get 
the answers we are looking for with regard to their budget 
requirements and what it is that they plan to pay for with 
those dollars.
    Some of the other stuff like construction, I'll let my 
colleagues address.
    With regard to VDA, with regard to, you know, looking at 
specific line items, it really--you know, it's a difficult and 
long process which is why, you know, we have hearings on it. 
And then we not only look at the VA's budget, then we look at 
the proposed budget from each of the chambers. It takes us 
quite a bit of time.
    So, is there enough detail? You know, yes and no; it really 
depends on the line item.
    Are there enough hours in the day, you know, to dedicate 
solely to looking at the budget? Definitely not.
    But overall, to answer your question, we could always use 
more detail. More detail and more commitment on behalf of the 
budget is always a good thing.
    Mrs. Kirkpatrick. Mr. Blake, you changed my question just 
slightly, and I mean it sounds like, yeah, you could use more 
detail.
    Do you feel like you have a timely response from the VA 
when you request more detail on the budget? That is really what 
I am trying to get to.
    Mr. Blake. That is a wholly different question there. I 
thought you were going to ask us first if we thought it was 
sufficient in the first place.
    Mrs. Kirkpatrick. Well, please, you can answer that first--
--
    Mr. Blake. I was--answer that question.
    Mrs. Kirkpatrick. Answer that first, but then I'd like to 
know if you requested additional detail, yeah.
    Mr. Blake. To your question, you know, usually when our 
questions get answered, it's in the budget briefings when they 
first release it, and we sort of cobble together questions and 
then we just spread out over time continuing questions. I can 
say that as part of this hearing and this is sort of a bow to 
Mr. Michaud's intent, if they are doing long-term planning, 
that is something that we would like to see for certain. They 
said they are doing it, it's in their testimony, and that was 
the first I had heard--I am aware that that is what they are 
doing, but I would like to know more detail.
    I actually have a little bit of fear because in their 
testimony, they also said that they don't want to be mandated 
to provide certain types of information. I can see why they 
might feel that way because one of our concerns that we outline 
in our testimony is that kind of information leading to 
benchmarks that don't allow for the proper evaluation in coming 
years as part of long-term planning.
    So, if there is a--I would say to your question, yes, they 
are pretty responsive, for the most part, when we have an issue 
that we need to have addressed.
    Mrs. Kirkpatrick. But as I understand your answer, you'd 
like more detail about the planning?
    Okay. My time is expired, Mr. Kelley, so you're off the 
hook, and I yield back, Mr. Chairman.
    The Chairman. Mr. Kelley, you're welcome to respond.
    Mr. Kelley. Thank you, Mr. Chairman.
    I think we could probably get better explanation. I think 
they give us a pretty good outline, but there are times we will 
ask specific--I'll use construction as an example. I'll just 
use round numbers. We will appropriate a billion dollars for a 
new project, but 100 million of that will be towards that 
project. The other 900 million will be paying old projects.
    And I need--I--I would like to understand that process a 
little bit better. I can't get an answer of how that money is 
shifted and shuffled around. So, that--that specifically, sure, 
we could use that information to make better decisions, better 
long-term planning from that.
    The Chairman. Mr. Walz?
    Mr. Walz. Thank you, Mr. Chairman, and thank you all for 
being here.
    As I said earlier, I know they couldn't answer us and I 
hear from you guys.
    And I think, Carl, you brought up a great point that we 
need to be careful about setting the benchmarks that goes back 
that are unrealistic in getting this right, but I still feel 
like the lack of transparency here makes it harder for you to 
do your job of caring for veterans. And so if we push this to 
get those answers, anything you can do to make that happen, I 
would be grateful for it, too.
    So, I believe in this. I believed it the first time around. 
I believe it's the right thing to do again, and we--we can 
continue to improve upon that process to make sure we don't get 
that, you know, budgeting on autopilot without concerns for 
changing situations.
    So, I yield back, Mr. Chairman.
    The Chairman. Thank you very much.
    Members, any other--oh, I am sorry. You're--you're hidden 
over there.
    Mr. O'Rourke, I am sure that you have questions.
    Mr. O'Rourke. Thank you.
    Really, I just actually wanted to afford Mr. Atizado the 
opportunity if he wanted to add anything to what the other VSO 
representatives have said in response to these questions on how 
we improve, both our strategic planning process and the merit 
of these three bills here.
    Mr. Atizado. Thank you, Congressman.
    First of all, under the overarching idea in our testimony 
about wanting more transparency and obviously more data, is 
really required of us as an organization to determine whether 
VA is, in fact, meeting a couple of things: meeting the 
veterans' needs, meeting the promises they have made, and 
making sure that the money is being spent most efficiently. So, 
all these three bills kind of tend toward--tilt towards that 
end.
    And I just want to reiterate what Carl had mentioned. I 
think, Mr. Michaud, you and the rest of the Committee, have 
picked up is we--is that we do want to work towards that goal 
and we think it's a worthy goal.
    To your question, ma'am, about whether there is enough 
information, I--I would--I would say this. I don't know if I 
would want any more information than what VA provides in its 
budget submission, simply because that straddles between 
reality, policy, and politics. And I think when we dive into 
actual programs and the delivery of services is where the 
questions come up as far as the actual data and the limitations 
of that data in describing how VA is going to achieve its 
purpose.
    And I think that is--I think I've said enough, but thank 
you.
    The Chairman. I appreciate your--your answer to that, and I 
want to thank all of the VSO representatives for the work that 
you do and the organizations that you represent.
    And I also want to note and thank the representatives from 
the VA who stayed around to--to listen to your testimony. And 
they obviously couldn't say a lot during their panel, but the 
fact that they are here to listen as well, I think is important 
and significant, so I want to thank them.
    And Mr. Chairman, thank you.
    With that, I yield back.
    The Chairman. Thank you, Mr. O'Rourke.
    As previously stated, all Members will have five 
legislative days with which to revise and extend their remarks 
and add any extraneous material that they think is necessary.
    We do appreciate both panels of witnesses.
    Thank you, VA, for staying with us through the second 
panel, we appreciate it.
    And once again, everybody, to the Members, thanks for being 
here.
    This hearing is adjourned.

    [Whereupon, at 11:47 a.m. the hearing of the Committee was 
adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jeff Miller, Chairman

    Good morning. Welcome to this morning's legislative hearing. Today 
we will receive testimony on three bills. The first is a bill I 
introduced along with Ranking Member Michaud, H.R. 813, the ``Putting 
Veterans Funding First Act of 2013.'' The second, H.R. 806, is a bill 
introduced by Ms. Brownley. And the third is a bill I, again, have 
joined the Ranking Member in introducing, the ``Department of Veterans 
Affairs Budget Planning Reform Act of 2013.'' I will now focus my 
opening remarks on H.R. 813.
    As my colleagues are aware, just over 4 years ago, Congress started 
providing VA's medical care budget one year in advance. The reason 
behind the law that directed this change in practice was simple: a 
full-year appropriations bill for VA had been enacted on time in only 4 
of the prior 20 years.
    According to veterans' organizations and VA officials, delayed 
appropriations inhibited the ability of program administrators to plan 
effectively. Thus, the hiring of doctors and nurses was delayed, 
medical equipment purchases were put off, and veterans experienced 
unacceptable wait times for medical appointments due to rationing. By 
providing the medical care budget in advance, no longer would funding 
for VA's health system be held hostage to Washington gridlock.
    I had hoped that things would improve in the intervening years, but 
unfortunately not much has changed. We're still lurching forward with 
stop-gap funding measures and periodic threats of government shut 
downs.
    When I introduced the Putting Veterans Funding First Act earlier 
this year all of government was operating under a Continuing 
Resolution. It wasn't until March, nearly six months into the fiscal 
year, when a full year appropriation was finally enacted. So although 
VA health care was protected, the other 14 percent of VA discretionary 
spending was held in limbo. VA information technology systems, claims 
processing, facility construction, medical research projects, veterans' 
cemeteries . . . full-year funding for all of these items was in doubt 
till the very end.
    Well, here we are, yet again, with the status of next year's 
appropriations bills up in the air. There is no agreed-upon budget 
framework. The House and the Senate are miles apart on appropriations 
measures. And the Administration has even issued a veto threat on the 
House-passed funding bill for VA for reasons that have nothing to do 
with the bill itself. Once more, political calculations having nothing 
to do with veterans are putting our collective support for funding of 
their benefits and services at risk.
    Veterans deserve better from us. I listened carefully to the 
statements of support on the floor for advance appropriations during 
debate on the FY2014 VA-Milcon bill. Members of both parties spoke with 
high praise, with one touting the (quote) ``absolute peace of mind and 
no worries'' (end quote) brought to veterans through advance 
appropriations. I heard another hail it as a (quote) ``platform for 
long-term planning and investment in critical programs,'' (end quote). 
And still another lauded it as providing (quote) ``timely and 
predictable resources,'' (end quote).
    I agree wholeheartedly. But couldn't these same statements be 
applied to funding VA's information technology program, the backbone of 
the health care system? Or VA's disability claims processing system, 
which is trying to surface from a crushing backlog? Or medical facility 
construction? Or how about the Nation's veterans' cemeteries? Each area 
requires advance planning for staffing, equipment, or contract services 
. . . all of that is made more difficult when there is no certainty of 
what the full-year funding level will be. The Putting Veterans Funding 
First Act would end the uncertainty by ensuring VA has its full 
discretionary appropriation well before the fiscal year begins.
    I am grateful for the support the bill has garnered across a wide 
spectrum of veterans' organizations. I believe H.R. 813 is entirely 
consistent with the protections afforded veterans funding in law today. 
VA is exempt from sequester, and it receives 86 percent of its 
discretionary funding already in advance. H.R. 813 just goes that extra 
mile.
    In the face of dysfunction that exists at both ends of Pennsylvania 
Avenue, this is one area where we can continue to get it right. I thank 
my colleagues who have already supported the bill, and ask those who 
haven't to join us in truly Putting Veterans' Funding First.
    I now recognize the Ranking Member for his statement.

                                 <F-dash>
               Prepared Statement of Hon. Michael Michaud

    Mr. Chairman, thank you for holding this important legislative 
hearing this morning. The three measures before us look at planning, 
funding and oversight. Individually, each measure is beneficial.
    But when looked at together, they provide an analytic and 
transparent framework for VA, Congress and other stakeholders. They 
ensure requested resources are sufficient to meet the current and 
future needs of veterans. They also ensure that these resources achieve 
the best outcomes for veterans.
    I want to thank the Chairman for bringing forward his bill, H.R. 
813. H.R. 813 would extend the advance appropriations mechanism to the 
VA's remaining discretionary accounts. Advance appropriations can 
provide fiscal stability during uncertain times.
    Advance appropriations also provides VA, Congress, and other 
stakeholders with a view of longer-term resource requirements. I 
believe that in order to extend advance appropriations for the 
remaining VA discretionary accounts, we must have strong confidence 
that the underlying budget projections are appropriate within a longer-
term context.
    That context must include a forward-looking strategy with goals and 
objectives, and a five-year program with expected outcomes, milestones 
and resources.
    There must be greater visibility for Congress into the assumptions, 
definitions, and details than that provided by top-line appropriation 
accounts. This information will assure us that all VA's missions are 
identified, planned, and executed.
    This will also give us insight into any trade-offs VA may make 
between resources and outcomes, and enable us to better oversee whether 
the VA is meeting its stated goals with executed resources.
    Before we budget and appropriate dollars, we must plan and program. 
This, in a nutshell, is my bill, the ``Department of Veterans Affairs 
Budget Planning Reform Act of 2013.''
    Let me explain what this bill does, what it does not do, and why I 
believe this is one of the most important bills we will consider as a 
Committee.
    Let me use an example we can all relate to. When we look to 
purchase a house we consider many factors. We consider the purchase 
price, we look at all the items that go into determining what our 
overall cost will be, from taxes to utilities to maintenance, and so 
on.
    We gather as much information as we can to assess whether this 
investment will be a good one in the years ahead. We look at the 
quality of the local schools, the prevalence of crime, and the long-
term trends in our economy that might have an impact on what our house 
is worth in the future.
    I believe the VA should go through a similar process with regard to 
its capabilities to carry out its mission.
    My bill would codify a VA planning, programming, budgeting and 
evaluation, or PPBE, system. PPBE is a ``best-practice'' currently used 
by leading corporations and important segments of our Federal 
government.
    For planning, it looks at the strategic level by means of a 
Quadrennial Veterans Review (QVR) that periodically assesses the 
changing environment. The QVR ensures VA is positioned to meet the 
evolving needs of veterans.
    For programming, it aligns resources and efforts with the strategic 
direction by means of a five-year program. This lays out the path, in 
outcomes and resources, to get there. The five-year program looks 
beyond a single year's budget, and next year's forecast, and forces the 
VA to accurately and fully account for the taxpayer dollars provided to 
it.
    It would provide Congress a vital tool we can use to be assured of 
the effectiveness of VA in meeting its responsibilities.
    The bill designates a Chief Strategy Officer to ensure that the 
planning and programming phases of the process receive equal 
consideration with the budget and execution phases.
    All these stages must be in place to create a mechanism that will 
better ensure that the VA budget provides the resources tailored to the 
missions of the Department and that the need for these resources is 
fully defensible.
    This bill does not graft Department of Defense or Department of 
Homeland Security policies onto the VA. This bill uses these agencies 
as models but is crafted to meet the unique needs of veterans and the 
VA. DoD is significantly larger than VA, has a different mission, and 
has over 50 years of experience operating under a PPBE system.
    There is no expectation that the VA can, or should, match what the 
DoD does today. It is the principles of long-range planning and 
programming that VA should adopt, not the 8,500 DoD Program Elements or 
their resource intensive approach.
    My bill recognizes VA's current efforts, and is intended to support 
these efforts while making sure Congress has access to the information 
we need to do our job. For the last few years, VA has experienced a 
period of budget growth and has been led by a Secretary who supports 
analytic and transparent budget development. But we cannot expect these 
conditions to be permanent.
    We should use the opportunity we have today to build a lasting 
framework to enable VA to meet its mission today, and tomorrow. Fiscal 
constraints may come, and leadership will transition. We must prepare 
now for VA to meet these challenges. Codifying a VA PPBE system in 
statute ensures its continuance in good times, and bad.
    I am committed to moving forward with this bill. I stand ready to 
work with my colleagues on this Committee, and in this Congress, to see 
that the very best bill we can produce is enacted. I stand ready to 
work with veterans' groups and others as we move forward.
    I recognize that a PPBE mechanism is a change in the way VA has 
done financial management.
    Change is hard. Not everyone will be comfortable with this change. 
But change is necessary if we are to position the VA to meet its 
responsibilities, and fulfill its mission, in the coming years. Change 
is necessary if we are to perform our responsibilities as Congress. My 
bill, and the bills before us today, acknowledge that the status quo is 
no longer acceptable. This acknowledgement requires that we take 
action.
    Thank you, Mr. Chairman, for your help and support in with my bill, 
and in having the Committee look at the broader picture of VA budgeting 
and planning.
    I look forward to working with you, the Members of the Committee, 
and our veterans, to make sure that VA's financial management process 
is not the result of budgeting-by-crisis.
    VA needs a financial system that is equal to the task of running 
the second-largest Federal agency. This system must also be capable of 
meeting the needs of veterans - not only today, but into the future.
    I yield back the remainder of my time.

                                 <F-dash>
               Prepared Statement of Hon. Jackie Walorski

    Mr. Chairman and Ranking Member, it's an honor to serve on this 
Committee.
    Thank you for holding this legislative hearing.
    Today's hearing is an important opportunity for this Committee, the 
VA, and respective veteran organizations to have a frank and open 
discussion on strengthening legislative proposals that will have a 
significant impact on the services available to the approximately 
22,000,000 \1\ veterans in this country.
---------------------------------------------------------------------------
    \1\ The official Veteran population projection as of September 30, 
2011 is 22,676,149 Veterans. http://www.va.gov/vetdata/docs/
SpecialReports/Profile--of--Veterans--2011.pdf.
---------------------------------------------------------------------------
    The work of veteran service organizations cannot go unnoticed. 
Because of their tireless efforts to find the best care for those who 
served and protected the freedoms we cherish, failures that need to be 
rectified have been unveiled and opportunities that can be seized upon 
have arisen both within Congress and, subsequently, the VA.
    The legislation debated today will ultimately ensure funding for 
critical veteran services is never delayed due to partisan posturing.
    I am proud of this Committee's ability to work together in order to 
fulfill our commitment to see the veterans of this country receive the 
benefits they have earned.
    I look forward to working with my colleagues and our panelists on 
this legislation before us.
    Thank you.

                                 <F-dash>
                 Prepared Statement of Robert D. Snyder

    Chairman Miller, Ranking Member Michaud, and Distinguished Members 
of the Committee:
    Thank you for the opportunity to present our views on three 
proposed bills in the area of Department of Veterans Affairs (VA) 
budgeting and strategic planning. Accompanying me are Helen Tierney, 
Executive in Charge for the Office of Management and Chief Financial 
Officer, Department of Veterans Affairs and Duane C. Flemming, PMP, 
Director, Policy Analysis and Forecasting, Veterans Health 
Administration.
    The first bill, H.R. 813 would include all VA discretionary 
accounts in the advanced appropriation process established in 2009 by 
Public Law 111-81, the Veterans Health Care Budget Reform and 
Transparency Act. The second bill, H.R. 806 would make permanent 
special GAO budget review provisions established in that law on a 
temporary basis. The third bill, in the form of a draft, has numerous 
provisions regarding requirements for supplemental budget submissions 
and a ``Future-Years Veterans Program'' report, a quadrennial review, 
reviews of VA's organizational structure, as well as prescribing 
elements for VA's strategic planning.
    On October 22, 2009, President Obama signed into law the Veterans 
Health Care Budget Reform and Transparency Act (Public Law 111-81) into 
law. This law allows Veterans' medical care to be funded a year in 
advance, and it means that VA is able to receive timely, sufficient, 
and predictable medical care funding from year to year. For our 
Veterans, this means better access to the medical care we provide at 
our 151 hospitals, 827 community-based outpatient clinics, 300 Vet 
Centers and 81 mobile outpatient clinics and mobile Vet Centers. 
Advance appropriations support the vital healthcare services that VA 
delivers to more than six million unique Veteran patients each year.

                                H.R. 813

    The proposed bill, ``Putting Veterans Funding First Act of 2013,'' 
would extend the authority for advance appropriations provided in the 
Veterans Health Care Budget Reform and Transparency Act to all of VA's 
discretionary accounts, effective in 2016 and in each fiscal year 
thereafter. We appreciate how Congressional support for VA advance 
appropriations for our medical care accounts has enabled a multi-year 
approach to medical budget planning and ensured continued medical 
services for Veterans. The advance medical care appropriation was 
designed to ensure continuity of critical medical operations in the 
face of fiscal uncertainty.
    A proposal to expand VA advance appropriations needs to be 
considered by the Administration as part of an across-the-government 
review of the advantages and disadvantages of such an approach not only 
for VA, but potentially other programs and agencies. Only in the 
context of such a broad review could the Administration offer an 
opinion on making such a change for the VA. We cannot therefore offer a 
position on H.R. 813 at this time. We very much appreciate the concern 
for Veterans services reflected in the proposal, and look forward to 
working with the Committee on how to best maintain the provision of VA 
benefits and services in light of fiscal uncertainties.

                                H.R. 806

    The bill would establish a permanent requirement for an annual 
report by the Comptroller General on the Department of Veterans Affairs 
medical budget submissions. The bill would require the report be 
submitted to the Committees on Veterans Affairs, Budget, and 
Appropriations and the VA Secretary no later than 120 days after the 
date on which the President submits a budget request. Congress in the 
Veterans Health Care Budget Reform and Transparency Act established the 
requirement beginning in fiscal year 2011, but on a temporary basis 
only through fiscal year 2013.
    VA does not support making these reports permanent. VA has expanded 
the information presented in the justification volumes each year in 
order to be more transparent in the budget request and to include 
additional information that has been requested by Congress. VA believes 
this information, supplemented by the continuing and ongoing oversight 
of VA by Congress, as well as engagement by the General Accountability 
Office as charged by Congress, provides ample review of, and 
transparency for, VA's budget process.

   A draft bill entitled the ``Department of Veterans Affairs Budget 
                          Planning Reform Act

    In general, VA believes the draft bill has a great deal in common 
with VA's ongoing and planned strategic planning, programming, and 
evaluation initiatives. We are excited about this work to make sure 
VA's planning and Department-level resource allocation processes are 
systematic and look beyond the horizon so that our Nation's Veterans 
can be accorded the best benefits, services, and support VA can offer. 
We therefore greatly appreciate the concepts put forward in the bill. 
We are eager to discuss those efforts with the Committee, but we are 
hesitant to lock down these concepts in statute.
    Recently, VA began a Planning, Programming, Budget and Execution 
(PPBE) initiative modeled after similar efforts used in other Federal 
agencies such as the Department of Defense, National Aeronautics and 
Space Administration, National Oceanic and Atmospheric Administration, 
the Department of Homeland Security, and others. VA believes PPBE has 
potential to more systematically improve VA's ability to anticipate and 
strategically prepare for the future needs of Veterans and their 
families. We also believe this effort can better meet the needs of the 
VA workforce and buttress their dedication to serve Veterans, as well 
as improve resource allocation and enable VA to get the best value for 
scarce resources. The PPBE cycle implements a multi-year analytical 
framework beginning with fiscal year 2015 to ensure the requirements of 
VA's healthcare delivery, benefits, and memorial services are fully 
vetted.
    There are many elements of the draft legislation that reflect these 
PPBE principles, and the direction VA is going in its strategic 
planning and programming efforts.
    Section two of the bill would require VA to submit annually at or 
about the time of its regular budget submission a ``Future Years 
Veterans Program'' that would include for the next five years 
(including the budget year submitted) estimated expenditures and 
proposed appropriations, as well as a VA five-year strategy regarding 
the Department's commitment to Veterans and the resources to meet those 
commitments.
    Section two would also mandate a Quadrennial Veterans Review (QVR), 
with the first such review conducted in fiscal year 2017. The bill sets 
forth detailed requirements and elements for the conduct of this 
review, and ties it to a `national strategy for meeting the Nation's 
commitment to Veterans' with a component regarding VA's cooperation 
with other Federal agencies, and State, local, and tribal governments.
    Consistent with these concepts, the Department has embarked on its 
own Quadrennial Strategic Planning Process (QSPP), which we believe is 
consistent with the aims of the draft bill to institute a more 
formalized strategic planning process to inform and drive the five-year 
programming process and the near-term budgeting process. The final 
results of our QSPP, a new VA strategic plan for the fiscal year 2014-
2020 timeframe, will be published no later than the President's budget 
submission in February 2014. We have already had productive briefings 
on the development of that plan with your staff and will continue that 
dialogue as we progress in finalizing the plan.
    VA's QSPP includes an environmental scanning and analysis phase, 
and has some of the same general goals as the Department of Defense's 
(DoD) Quadrennial Defense Review (QDR). VA is concerned about 
expectations that the bill's QVR should be as extensive and detailed as 
DoD's QDR. VA believes an attempt to replicate the QDR is not 
appropriate for the Department and would have serious staffing and 
resource implications.
    VA has been working towards building a multi-year programming 
capability and established the Office of Corporate Analysis and 
Evaluation (CAE) within the Office of Policy and Planning to lead that 
effort. The Secretary signed the first Future Years Veterans Plan, 
covering fiscal years 2015-2019, on April 30, 2013 to document the 
results of our first true programming effort. This effort has in common 
the same concepts as the legislation in providing an additional tool 
for VA to provide a more strategic longer-term view to ensure that 
capabilities are well-defined and balanced with VA's resource requests.
    While we believe the general intent of section two will be met with 
the emerging PPBE process within VA, we do have significant 
reservations about any mandate to publish specific dollar and FTE 
projections beyond the budget year. The strategic planning and 
programming processes are tools used to align vision and resources to 
capabilities, programs, and activities, to be distinguished from VA's 
budget formulation process. A requirement to publish the programming-
generated expenditure and appropriation figures along with VA's budget, 
as required by the bill, could create confusion between those two 
functions. That in turn could limit flexibility in developing and 
executing the Department's budget to meet emergent requirements and 
opportunities.
    As noted above, the QVR would require a broader role for VA in 
developing a National Veterans Strategy that identifies and prioritizes 
the full range of programs, services, benefits and outcomes regarding 
Veterans provided by the federal government. VA believes that its 
ongoing development and work in ``futures'' analysis and planning have 
common aims with this aspect of the QVR proposal, and will be glad to 
discuss this with the Committee, although a National Veterans Strategy 
would require broad analysis and policy development that would go well 
beyond just the VA.
    Section two of the bill also requires the Secretary to provide 
annual ``written policy guidance for the preparation and review of the 
planning and program recommendations and budget proposals of the 
elements of the Department.'' It is current practice for the Secretary 
or Deputy Secretary to issue such guidance as necessary elements of 
implementing the Department's planning, programming, and budgeting 
processes. Therefore, VA believes this provision is unnecessary.
    Section three of the draft bill would designate the Assistant 
Secretary whose functions include planning, studies and evaluations as 
the Chief Strategy Officer of VA. The draft bill goes on to provide in 
significant detail the responsibilities of the Chief Strategy Officer. 
VA strongly supports the direction set out in this section, as those 
areas delineated in the bill are being performed by the Assistant 
Secretary for Policy and Planning. However, VA is reluctant to codify 
those responsibilities in legislation, so that those responsibilities 
can be adjusted as required in the future. VA would like to brief the 
Committees on the work of the Office of Policy and Planning as it 
relates to the concepts set out in section three.
    Section four of the draft bill would require VA to conduct a study 
of the functions and organizational structure of the Office of the 
Secretary as well as the entire Department. It also would require VA to 
engage a contractor to perform a separate parallel review of those same 
topics. VA in its day-to-day management continually assesses the 
effectiveness and the efficiency of its organizational structures in 
serving Veterans and in being good stewards of taxpayer resources. VA 
recognizes there is always more to do, but believes our existing 
planning processes are adequate to consider beneficial organizational 
changes. Additionally, the reviews of the General Accountability Office 
and VA's Office of Inspector General provide outside review and counsel 
that is always seriously considered by VA.
    Thank you for the opportunity to comment on these three important 
bills, and we appreciate the Committee's attention the critical topics 
of VA budgeting and strategic planning. They are integral to our drive 
to continue improving the health care, compensation benefits, memorial 
honors, and other support and services we provide to the Nation's 
Veterans.

                                 <F-dash>
                    Prepared Statement of Carl Blake

    Mr. Chairman, Ranking Member Michaud, and Members of the Committee:
    Thank you for inviting The Independent Budget veterans service 
organizations (IBVSOs) to present joint testimony on pending 
legislation designed to improve the budget, appropriations and planning 
processes of the Department of Veterans Affairs (VA). As you know, The 
Independent Budget is a comprehensive budget and policy document co-
authored annually by AMVETS (American Veterans), DAV (Disabled American 
Veterans), PVA (Paralyzed Veterans of America) and the VFW (Veterans of 
Foreign Wars of the United States), and endorsed by dozens of other 
veterans organizations.

H.R. 813
    It has been almost four years since the IBVSOs, along with our 
colleagues in the Partnership for Veterans Health Care Budget Reform, 
celebrated passage of Public Law 111-81, the Veterans Health Care 
Budget Reform and Transparency Act of 2009. This landmark legislation, 
the product of years of work and collaboration among veterans 
organizations and veteran leaders in the House and Senate, authorized 
one-year advance appropriations for the three medical care 
appropriations accounts in the Department of Veterans Affairs (VA): 
medical services, medical facilities, and medical support and 
compliance (now medical administration). As a result, the VA medical 
care budget is now approved up to a year in advance of the start of 
each fiscal year, preventing the disruptions that have been regularly 
occurring in other federal agencies due to endless budget stalemates 
and continuing resolutions.
    In the two decades prior to enactment of the law, VA received its 
regular annual appropriation before the start of the fiscal year just 
four times, creating sustained challenges for administrators striving 
to provide timely, quality health care to wounded, injured and ill 
veterans. With the enactment of Public Law 111-81, VA now receives its 
medical care appropriation on the first day of the fiscal year, and can 
plan on that funding level up to a year in advance. By assuring 
timeliness and predictability of funding levels, VA health care has 
been more effective and efficient in the use of funding provided to 
operate VA's medical care facilities and myriad programs.
    H.R. 813, the Putting Veterans Funding First Act, introduced by 
Chairman Miller and Ranking Member Michaud, would build upon this 
success by authorizing advance appropriations for the remaining 
discretionary accounts: Medical and Prosthetic Research, General 
Operating Expenditures, Information Technology, National Cemetery 
Administration, Inspector General, Major Construction, Minor 
Construction, State Home Construction Grants, State Cemetery Grants and 
Other Discretionary Accounts. In total, the remaining portion of VA's 
funding requested outside the advance appropriation process is only 10 
to 15 percent of VA's total discretionary funding.
    While the enactment of advance appropriations authority for VA 
medical care has been successful in helping the VA health care system 
operate more efficiently and rationally during budget stalemates, the 
remaining VA budget accounts continue to be negatively affected by 
unrelated political and partisan fights. For example, although the VA 
medical care budget accounts may contain sufficient funding to open a 
new outpatient clinic, the fact that VA's IT funding is still provided 
through the regular annual appropriations process can mean that 
computers or other IT systems might not be available until Congress 
completes its work on VA's regular appropriations bills. Similarly, 
some of the funding for Medical and Prosthetic Research directly 
contributes to clinical care, but it is out of sync with the provision 
of medical care funding done through advance appropriations. Thus, 
while VA researchers' salaries and benefits (paid by the Medical 
Services appropriation) are now secured at day one of a fiscal year, 
their awarded research projects may be delayed or interrupted because 
that appropriation is not yet approved by Congress.
    Moreover, VA construction accounts that fund vital infrastructure 
maintenance and improvement projects would also be more efficient if 
were provided through advance appropriations. Uncertain funding levels 
and delayed contract awards add to overrun costs on important VA 
capital projects. Finally, the Veterans Benefits Administration's 
ability to address the backlog of pending claims and transform itself 
into a modern 21st century organization is hindered by annual budget 
fights and endless continuing resolutions. Moreover, because VBA's 
reform is heavily dependent on automation and information technology, 
its transformation would benefit from the timely and predictable 
funding resulting from advance appropriations.
    Mr. Chairman, in The Independent Budget for Fiscal Year 2014 we 
recommended that Congress debate and consider authorizing advance 
appropriations for all VA accounts. Earlier this year, you and Mr. 
Michaud introduced H.R. 813 to achieve exactly that goal, and we are 
pleased to support this legislation. We believe that our nation has no 
higher obligation than to ensure that the men and women who served in 
our armed forces receive all the benefits and services owed to them in 
a timely manner. This legislation will help guarantee that promise is 
kept.

H.R. 806
    In addition to extending advance appropriations to all VA accounts, 
The Independent Budget recommended that Congress permanently authorize 
a role for GAO to monitor and report on VA budget formulation and the 
advance appropriations process. Under the provisions of Public Law 111-
81, GAO was required to study and report on the Administration's VA 
medical care budget submitted in 2011, 2012 and 2013. In particular, 
GAO was required to compare the amounts included in the 
Administration's budget submission with the amounts estimated by VA's 
Enrollee Health Care Projection Model, the internal actuarial model 
that projects VA medical care resource needs.
    In the first two years, GAO reported significant findings of 
unjustified, questionable changes VA made during the internal budget 
development process. For example, in 2011, GAO found that requested 
funding for non-recurring maintenance (NRM) was significantly below the 
amounts projected by the actuarial model. In 2012, GAO found that VA 
was once again proposing to make substantial reductions in budget 
requests based upon unverified future savings from planned operational 
improvements. The third and final report required under the current 
statute is due to be released within the next month and we look forward 
to reviewing these findings.
    H.R. 806, introduced by Representative Brownley, would make 
permanent the requirement that GAO continue to study and report on VA's 
budget submissions, also a recommendation called for in The Independent 
Budget, and we are pleased to support this legislation.
    In addition, we would note that should H.R. 813 be enacted, it 
would be necessary to revise H.R. 806 to provide additional flexibility 
to enable GAO to study and report on all VA funding provided through 
advance appropriations.

Discussion Draft Bill on VA budget and strategic planning reform
    The discussion draft bill to be proposed by Representative Michaud, 
entitled the ``Department of Veterans Affairs Budget Planning Reform 
Act of 2013,'' would establish new planning and budgeting processes, as 
well as study and make organizational changes affecting VA's ability to 
develop and implement budgets and strategic plans. The draft bill would 
establish five new processes to accomplish these purposes.
    First, the draft bill, beginning in 2017, would require VA to 
conduct a Quadrennial Veterans Review (QVR) every four years, modeled 
after the Quadrennial Defense Review (QDR) and Quadrennial Homeland 
Security Review (QHSR) currently required by law. The Quadrennial 
Veterans Review would study and report a strategy for meeting the 
nation's commitment to veterans and the resources required to meet that 
commitment. The QVR is intended to be a futures-based look at 
opportunities, challenges, policies and strategies related to meeting 
veterans needs. The report would also examine the priorities for 
veterans programs and assess the effectiveness of VA's organizational 
structure.
    The draft bill requires that VA conduct its review in consultation 
with other Federal agencies, as well as a wide range of stakeholders, 
``including State, local, and tribal government officials, members of 
Congress, veterans service organizations, private sector 
representatives, academics, and other policy experts.''
    Second, the bill would require VA to develop and submit annually a 
Future-Years Veterans Program (FYVP), which is modeled after the 
Future-Years Defense Program (FYDP) and the Future-Years Homeland 
Security Program (FYHSP). The FYVP would lay out a five-year plan for 
meeting the nation's commitment to veterans as well as delineate the 
resources necessary to meet that commitment. The FYVP would include 
five-year estimates of the budget and appropriations levels on a 
program element basis in order to ensure that resources properly align 
with outcome-based plans and programs. The FYVP would be submitted 
concurrent with VA's annual budget submission and the draft bill would 
require that it be consistent with funding requests contained in the 
Administration's budget submission. The draft bill would also require 
that the Future-Years Veterans Program be coordinated with the 
Quadrennial Veterans Review, which serves as the foundation for 
developing the FYVP's five-year plans.
    Third, the draft bill would require the Secretary to annually 
provide certain policy guidance to VA planning, programming and 
budgeting officials throughout VA responsible for developing individual 
program budget recommendations. The policy guidance from the Secretary 
would be required to be based on the most recent QVR and FYVP, as well 
as estimates of the ``resource levels projected to be available'' in 
future years.
    Fourth, the bill would create the position of Chief Strategy 
Officer (CSO) to be filled by the Assistant Secretary for Policy and 
Planning, or if there is a subsequent reorganization, the Assistant 
Secretary responsible for agency planning. The CSO would have broad 
responsibilities for overseeing the planning, programming, budgeting 
and execution functions Department-wide, to include health care, 
benefit and cemetery programs. The CSO would have significant 
independent authority, reporting only to the Secretary. The CSO's 
responsibilities for budgeting would be on the same level as VA's Chief 
Financial Officer (CFO), a role designated for the Assistant Secretary 
for Management. The CSO would be chiefly responsible for managing the 
new QVR, FYVP and policy guidance requirements contained in this draft 
bill.
    Fifth, the draft bill would require VA to undertake a comprehensive 
one-year study of the organizational structure of the Secretary's 
office and the Department as a whole. In addition, the draft bill would 
require that an independent contractor conduct a parallel study of the 
organizational structure of the Secretary's office and of the 
Department. The independent study would be included within the report 
submitted by the Secretary to Congress.
    The discussion draft bill has a number of intended purposes, which 
would include the following:

    <bullet>  To strengthen VA's capacity to plan for near- and long-
term future needs of veterans;
    <bullet>  To ensure that strategic planning is future-looking and 
outcome-based;
    <bullet>  To create a more unified planning, programming, budgeting 
and execution process;
    <bullet>  To better align VA's plans with their resource requests; 
and
    <bullet>  To increase the transparency of VA's planning and 
budgeting processes.

    The IBVSOs agree that these intended purposes are worthy goals, 
generally shared by VA and supported by Congress. However, because the 
discussion draft bill has only recently been shared, and is not yet in 
final form, we have not had sufficient time to explore a number of 
important questions about whether the bill would ultimately be 
implemented as intended by its sponsors, whether the proposed 
structures and institutional changes would achieve its intended 
purposes, or whether there could be any unintended and negative 
consequences that could or should be addressed before the bill 
advances.
    For example, we are not yet certain that a strategic planning 
framework designed specifically for the Department of Defense (DOD) and 
later adopted by the Department of Homeland Security (DHS) would be 
appropriate for VA. There are fundamental differences between DOD and 
VA (and also between DHS and VA) that raise concerns about whether VA 
should be required to use the same planning structures and methods 
designed specifically to evaluate DOD's future roles and missions 
following the end of the Cold War. The original Quadrennial Defense 
Review (QDR) was recommended in 1995 by the Commission on Roles and 
Missions of the Armed Forces, following the collapse of the Soviet 
Union, the fall of the Iron Curtain over Eastern Europe, and 
revolutionary defense and budgetary changes taking place in the United 
States during the 1990s. Because the world was being transformed in 
fundamental ways, DOD and Congress agreed it was necessary to 
comprehensively review and reconsider the nature of future national 
security threats, our defense posture and capabilities, and future-
looking strategies and tactics required to protect our nation. The 
paradigm shift in national and homeland security that occurred 
overnight on September 11, 2001 further emphasized the need for regular 
strategic reviews within both DOD and DHS. By contrast, the fundamental 
roles and missions of VA and veterans policies rarely, if ever, need to 
shift so quickly or dramatically based on external events or 
influences.
    Another central argument put forth by the Commission for creating a 
quadrennial review at DOD was that, ``when Administrations change, 
defense planning is subject to a turbulence exceeded only by that 
resulting from significant shifts in the international security 
environment.'' While presidential elections may often lead to large 
swings in national security policy, our nation's longstanding 
commitment to veterans has remained clear and steadfast for at least 
150 years, going back to Lincoln's 2nd Inaugural Address and his call 
to `` . . . care for him who shall have borne the battle, and for his 
widow, and his orphan . . . .'' Veterans policy evolves over time, not 
overnight following elections or as a result of a revolution in a 
foreign land.
    Of course, long range strategic planning is vitally important and 
VA does and must continue to do so. VA's current strategic plan, which 
covers the period from FY 2011 to FY 2015, is centered around three 
guiding principles: ``people centric,'' ``results-driven,'' and 
``forward-looking.'' It lays out four strategic goals, sixteen major 
initiatives, and twenty supporting initiatives, and the plan identifies 
agency priority goals by fiscal year. VA also annually prepares and 
submits to Congress and the public a Performance and Accountability 
Report to show how well VA's strategic goals are being met through 
regular assessment of objective criteria. In addition, VA's annual 
budget submission lays out in great detail the programs and policies 
designed to achieve VA's strategic goals, including analyses of 
resources dedicated to meeting each goal.
    VA also supports two dozen ongoing advisory committees to provide 
outside perspectives on specific needs, such as for disability 
compensation, education, prosthetics, geriatrics, homeless veterans and 
women veterans. Congress has also authorized commissions and task 
forces from time-to-time to take comprehensive, in-depth looks at major 
issues or challenges, such as in mental health programs, disability 
benefits, vocational rehabilitation and health care funding, to name 
only a few. It is not yet clear how or if the creation of a Quadrennial 
Veterans Review would improve on these ongoing strategic planning 
processes. Would it ultimately combine, supplant, or supplement these 
activities?
    Similarly, it is not clear whether the creation of a Future-Years 
Veterans Program would lead to either more transparent or more accurate 
budgets or appropriations. Although the QDR and QHR are readily 
available online, it does not appear that the FYDP or the FYHSP are 
similarly available. Although it is understandable that both DOD and 
DHS would keep classified programs' budgeting and planning information 
shielded from public view, there appears to be no part of their Future-
Years Programs that is publicly available for review, even for their 
many unclassified programs and budgets. As such, we have questions 
about whether the information to be included in the FYVP would be 
transparent. Furthermore, without the ability to review a Future-Years 
Defense (or Homeland Security) Program, we are challenged to determine 
how or whether this approach has changed their budgeting processes, and 
specifically whether the programs are better aligned with budgets and 
long-term plans. We can reasonably conclude, however, that it has not 
made it more transparent.
    We also have questions about the complexity of the proposed Future-
Years Veterans Program process, both about the level of detail to be 
included and whether it would create a more helpful or difficult 
process. Although we were not able to see an actual example of a 
Future-Years Program document, we were able to locate a 2004 DOD guide 
to the structure and codes used in the FYDP. This document was 2,160 
pages long and contained more than 8,500 Program Element (PE) codes, 
each of which may have associated five-year budget estimates. We 
understand and appreciate that VA's budgeting process is significantly 
less complex than DOD's, but without the ability to actually see actual 
examples of how a Future-Years program would work, and without details 
about the number of program or budget lines the FYVP would contain, it 
is difficult to ascertain whether this new budgeting element would be 
an improvement to the current budgeting process. We also have questions 
about how difficult it may be to change out-year numbers at the program 
level in a future budget-constrained environment.
    Another significant unanswered question concerns the role of the 
Office of Management and Budget (OMB) in this new planning and 
budgeting process. Since the draft bill requires that the 
Administration's budget be ``consistent'' with the FYVP budget 
estimates, would OMB have a direct or indirect ability to revise or 
constrain the budget and appropriations levels contained in the FYVP? 
In setting out ``policy guidance'' to the individual program offices, 
the Secretary is required to inform them of ``resource levels projected 
to be available'' as they make their budget estimates; would these 
levels come directly or indirectly from OMB?
    There are also questions about the creation of a new CSO inside VA. 
The language of the draft bill would give the CSO significant 
independence in overseeing all, planning and programming throughout VA, 
including that done within the Veterans Health Administration (VHA), 
the Veterans Benefits Administration (VBA) and the National Cemetery 
Administration (NCA). Would the CSO have overlapping authority with the 
Under Secretaries of these administrations? In preparation of the 
budget, the CSO also would play a significant role and possess final 
approving authority according to the draft bill's language. How would 
the CSO and the CFO interact during preparation of VA's budget; are 
they co-equal and how would disagreements between them be settled? 
Would this lead to greater harmony or conflict within VA's budget 
formulation process?
    We also have questions about the role of veterans service 
organizations in the development of the QVR. The draft bill would 
require VA to consult with a wide range of stakeholders, both 
governmental and nongovernmental. As organizations that have not only 
great interest in veterans policies, but great experience and expertise 
in dealing with them, we have concerns about whether this broad 
consultation process would dilute our input. While there is always a 
role for outside perspectives to ensure fresh thinking within public 
agencies, VSOs are not idle stakeholders; collectively we provide 
direct assistance to VA and veterans in many areas, and particularly in 
representing veterans in their claims for benefits and services. We all 
have service officers who work inside VA facilities and behind 
information technology (IT) firewalls, playing an integral role in the 
claims processing system and serving veterans as attorneys-in-fact. We 
are concerned about the bill's potential of diminishing our influence 
and putting us on par with less interested, involved or informed 
stakeholders during the consultation process.
    Although we have important questions about the effects of this 
bill, the details of some of its provisions, and how it might be 
implemented, we have no questions about the sincere intentions of the 
bill's sponsors. We agree that VA's strategic planning and budgeting 
processes ought to be consistently and openly aligned to achieve our 
shared goals in support of America's veterans. We also agree that more 
transparent, honest and detailed information can build greater 
confidence in VA, increase the effectiveness and efficiency of veterans 
programs, and improve the outcomes for veterans who need support, 
services and care. However, planning processes or structures in one 
agency are not necessarily appropriate for every other agency. History 
shows that Congressional intent is not always faithfully implemented. 
For all of the above reasons, we believe it is important to raise and 
resolve these questions and concerns now, to help prevent any unwanted 
and unintended negative consequences before this draft bill were to 
move forward.
    Mr. Chairman, we greatly appreciate the meaningful dialogue and 
cooperation we have had with the Committee's professional staff on both 
sides of the aisle, helping us to better understand this draft bill. We 
are grateful for their willingness to work with us to address our 
concerns, and we look forward to continuing to work together with the 
bill's sponsors in this regard. However, since this issue was not 
addressed in our most recent Independent Budget released in February, 
2013, and because we still have many unanswered questions about this 
draft bill as highlighted by this testimony and our discussions with 
staff, we do not have a position on this draft bill.
    This concludes our testimony and we would be happy to answer any 
questions that you and Members of the Committee may have.
Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
                            Fiscal Year 2013
    No federal grants or contracts received.
                            Fiscal Year 2012
    No federal grants or contracts received.
                            Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program-- 
$262,787.

                                 <F-dash>
               Prepared Statement of Louis J. Celli, Jr.

    America's veterans deserve sufficient, timely and predictable 
funding for the programs of the Department of Veterans Affairs (VA). 
The entire country has watched the budget squabbles and territorial 
infighting of Congress over the last several years. Though this 
committee has steadfastly risen above the fray and maintained a 
bipartisan spirit of cooperation, veterans' program have still suffered 
from the specter of government shutdown, sequestration, and a bitterly 
divided budgetary landscape that has led to stop gap continuing 
resolutions in the place of the passage of real budgetary legislation.
    Chairman Miller, Ranking Member Michaud and distinguished Members 
of the committee, on behalf of Commander Koutz and the 2.4 million 
members of The American Legion, I thank you and your colleagues for the 
work you do and especially your bipartisan dedication to ``getting it 
right'' for America's veterans and their families.
    The legislation considered by the committee today is focused on 
fixing some of the budgetary concerns related to the VA, and helping to 
achieve that goal of forward thinking, sufficient, timely and 
predictable funding for veterans' programs.

                               H.R. 806:

    To amend title 38, United States Code, to make permanent the 
requirement for annual reports on Comptroller General reviews of the 
accuracy of Department of Veterans Affairs medical budget submissions, 
and for other purposes.
    This legislation makes permanent a current requirement for the 
Comptroller General to review the accuracy of the Medical Care Budget 
Submission, as it relates to the Baseline Health Care Model Projection. 
The review is to be submitted to the House and Senate Committees on 
Veterans' Affairs, as well as the House and Senate Appropriations 
committees, and the Committee on the Budget of the House of 
Representatives not later than 120 days after the submission of the 
President's budget.
    As a resolution based organization that derives its operational 
mandate from resolutions passed by membership in regular meetings, The 
American Legion has no resolution respective to oversight of the VA 
budget submissions by the Comptroller General.
The American Legion has no position on this legislation.

          H.R. 813: Putting Veterans Funding First Act of 2013

    To amend title 38, United States Code, to provide for advance 
appropriations for certain discretionary accounts of the Department of 
Veterans Affairs.
    When Congress passed the Veterans Health Care Budget Reform and 
Transparency Act in 2009, the intent was quite clear: ensure 
sufficient, timely and predictable funding to care for those who have 
worn the nation's uniform. The key improvement was the authorization of 
Congress to approve investments in medical care for veterans one year 
in advance to allow VA to more effectively plan for the future and 
ensure veterans would get the quality medical care they have earned. 
Supported by resolution \1\, The American Legion worked closely with 
Congress, and this Committee, to ensure that this legislation passed.
---------------------------------------------------------------------------
    \1\ Resolution No. 313: Support Budget Reform of Annual 
Appropriations for the Department of Veterans Affairs (VA) Health Care 
Funding
---------------------------------------------------------------------------
    This goal is still as vital and important as it was four years ago 
and The American Legion certainly supports assured funding for VA 
through resolution \2\. Daily news stories about the backlog of 
disability claims, and the inability of VA and the Department of 
Defense (DOD) to come together on plans for a joint electronic health 
record, have made it clear that veterans' health care is not the only 
component of the budget that needs to benefit from advance 
appropriations.
---------------------------------------------------------------------------
    \2\ Resolution No. 180: Assured Funding for VA Medical Care
---------------------------------------------------------------------------
    Through American Legion analysis, and close working projects 
regarding VA programs, we now recognize that many other key VA 
accounts, such as the Information and Technology (IT) accounts; 
necessary to provide long term planning as VA struggles to implement 
technology goals, like a fully electronic operating environment to help 
tame the claims backlog, or; the ability to transmit health records 
back and forth with the DoD, would benefit from advance appropriations. 
The Major and Minor Construction budgets would also benefit from a 
longer range planning window, to better understand and project how VA 
will meet their growing infrastructure needs, even though they have 
routinely slashed funding for construction over the past several years.
    The American Legion worked closely with the Veterans Benefits 
Administration (VBA) as they grappled with turning the tide of a 
massive claims backlog through the looming threat of sequestration, 
which held future planning hostage for nearly a year until the Office 
of Management and Budget (OMB) was able to render their report. And, as 
many of the committee members here remember, it took much hounding from 
this committee, the Senate Committee on Veterans' Affairs, and Veterans 
Service Organizations (VSOs), including The American Legion, to ensure 
that the main VBA programs be exempt from sequestration. That looming 
threat was potentially devastating to the long term planning needs of 
VBA employees seeking to tame the massive backlog. Just as VBA was 
attempting to implement a major IT infrastructure change with the 
Veterans Benefits Management System (VBMS), planners were facing down 
an uncertain future because only the already-protected medical care 
budgets had the certainty of advanced appropriations to enable long 
range planning.
    Through the work of the 2,600 American Legion Accredited Veteran 
Service Officers, our 10 years of System Worth Saving reports that have 
chronicled a decade of VA healthcare and services, and the hundreds of 
programs facilitated through thousands of American Legion posts working 
on behalf of veterans nationwide, every day, The American Legion has 
the ability and resources to assess firsthand the importance of 
safeguarding the important initiatives rolling out to meet the needs of 
America's veterans. We want this committee to know that we are adamant 
about protecting these vital services; whether they are in place to 
serve our recently returning service members who are coming back from 
fighting two grueling wars in Iraq and Afghanistan, or our Vietnam era 
veterans facing retirement, or World War II and Korean war veterans 
facing the decisions revolving around elder care. Finally, the VA 
budgets need to properly reflect the long term planning necessary to 
meet expansions of the National Cemetery system, the VBMS and 
electronic record projects which affect VBA, VHA and IT, as well as 
ongoing Office of the Inspector General (IG) oversight. These programs, 
and our veterans, deserve the same benefit of a long term planning 
window that the medical care accounts enjoy.
    The American Legion strongly supports the expansion of advanced 
appropriations to all discretionary accounts of the Department of 
Veterans Affairs. Assured funding that supports long term planning is 
essential to preventing future backlogs, future breakdowns in benefits 
delivery and the smooth IT structure required for seamless transition.
The American Legion supports the passage of H.R. 813.

   Draft Legislation: Department of Veterans Affairs Budget Planning 
                           Reform Act of 2013

    To amend title 38, United States Code, to direct the Secretary of 
Veterans Affairs to submit to Congress a Future-Years Veterans Program 
and a quadrennial veterans review, to establish in the Department of 
Veterans Affairs a Chief Strategy Officer, and for other purposes.
    This legislation, broad in scope, seeks to formalize planning 
procedures and develop tools for use, both within VA and by outside but 
vital stakeholders such as Congress and VSOs, to determine whether VA 
budgeting is on track to meet their goals and deliver benefits and 
services to the nation's veterans. The intention of the legislation is 
admirable, as more transparency and access to more data is helpful for 
all stakeholders to ensure VA is moving forward in the direction that 
will best meet the needs of veterans. As The American Legion is a 
resolution based, grass roots organization that derives our operational 
mandate from our combined membership in the form of resolutions passed 
at regular meetings, and the resolutions are silent on the structural 
changes this legislation would impose, we cannot support or oppose this 
legislation. However the very important concepts outlined in this 
legislation merit discussion on a section by section basis, and the 
following points should be considered if this legislation moves 
forward.

Section I: Simply outlines the title
Section II:
    Future-Years Program: This section outlines the mission for VA to 
create a ``Future-Years Veterans Program'' to coincide with the annual 
budget submission. The Future-Years program would be similar to the 
budget, but would also cover expected expenses over a five year period. 
The first two years of the Future-Years program would exactly mirror 
the budget submission (which presumably would cover two years in 
anticipation of advanced appropriations) but would also contain out 
year projections to meet the goals of VA in seeing to the needs of the 
nation's veterans. This process potentially could be useful to outside 
observers, as if VA were to suddenly lower funding from a key project 
in one year's budget, and not reflect a down the road increase, it 
would immediately raise red flags as to how they still intended to meet 
the outcome down the road with drastically reduced funding.
    Furthermore, by comparing the Future-Year plans from year to year, 
within a brief period, any budgetary legerdemain would presumably 
become glaringly obvious. An example of this type of behavior can be 
seen with recent underfunding of VA's Construction budgets. Despite the 
fact that VA has a Strategic Capital Investment Planning (SCIP) program 
to determine long term construction needs, the budget request for Major 
and Minor Construction over the past few years were low. As noted by 
past National Vice Commander of The American Legion William Schrier 
before the Senate Veterans' Affairs Committee \3\, VA's SCIP plan 
called for $65 billion in projects over the next ten years, which 
should have amortized to approximately $6.5 billion a year in 
construction costs, yet VA's own ask was less than $2 billion. This 
glimpse into the longer term picture was what prompted The American 
Legion to push for more funding for Construction so VA would not fall 
behind their SCIP program needs. Sadly, the budget was not increased, 
but perhaps with better tools to see the discrepancies, Congress will 
also be able to recognize these shortfalls and help adjust VA's budget 
upwards when critical goals are in danger of not being met.
---------------------------------------------------------------------------
    \3\ Statement of William F. Schrier, Department of Washington on 
behalf of The American Legion before the Committee on Veterans Affairs, 
United States Senate, February 29, 2012
---------------------------------------------------------------------------
    Quadrennial Veterans Review: This would require, starting in Fiscal 
Year (FY) 2017 and every four years thereafter, a review of the 
commitments of the United States to veterans and a determination of 
what resources are necessary to deliver on those commitments. This 
review would be comprehensive in scope, would examine all policies and 
strategies, and would require consultation not only within the 
Department, but with other governmental bodies, as well as State and 
local governments, tribal officials, private sector and academic 
concerns, and importantly members of VSOs.
    Herein lies a major concern of The American Legion, as the full 
role of VSOs is not clearly delineated, and it is unclear what is meant 
by re-examining the commitments of the United States to veterans. In 
certain cycles, when the blood sacrifices of our nation's veterans are 
less prominent on the nightly news, there are forces that rise to 
question why we provide compensation to our veterans. Though the 
devastating effects of exposure to the chemical defoliant Agent Orange 
were only brought to light by the tireless efforts of advocates like 
The American Legion, there are those who would roll back the clock on 
hard fought gains for those Vietnam veterans who have suffered 
devastating effects and terrible disabilities because of exposure. When 
the eyes of the nation are not squarely on the wounded veterans, there 
are those would question the entire system of VA disability.
    The rise of such attitudes and how they might factor in to ``a re-
examination of the commitments of the United States to its veterans'' 
is deeply troubling to The American Legion. The American Legion 
strongly opposes any administrative or legislative proposals to dilute 
or eliminate any provision of the disability compensation program \4\. 
In order to ensure the voice of those most important to an overview of 
VA commitments, the veterans who would be affected, is not lost there 
would have to be clearer direction about the nature of VSO involvement 
in the evaluation process.
---------------------------------------------------------------------------
    \4\ Resolution 178: Department of Veterans Affairs (VA) Disability 
Compensation, AUG 2012
---------------------------------------------------------------------------
    Already VSOs contribute greatly to the tools Congress and VA have 
at their disposal to evaluate the effectiveness of VA programs. The 
American Legion provides annual ``System Worth Saving'' reports on the 
effectiveness of health care delivery in the VHA system, as well as 
``Regional Office Action Review'' assessments of VBA claims processing. 
VSOs are clear experts in VA programs, and their essential role in the 
evaluation of VA should be reflected.

Section III: This section would designate a Chief Strategy Officer 
        (CSO) for the Department of Veterans Affairs. The CSO would be 
        a principal advisor to the Secretary, and would advise on long 
        range strategic planning and the implications of such planning. 
        This would include, but not be limited to, such tasks as cost 
        estimation, integration of planning, analysis on the planning 
        and programming phases of the new system, and developing and 
        executing the Future-Years Program. This would be done to give 
        this new system appropriate heft and weight within the 
        Department, and ensure the work of planning the future programs 
        was not circumvented by other concerns.

Section IV: This section provides for a study on the functions and 
        organizational structure of the office of the Secretary of 
        Veterans Affairs and of VA in general. As with any major change 
        in scope to an organization's long range planning mechanisms, a 
        study of the existing systems in place is warranted. The study 
        mandated by this legislation will take place no later than one 
        year after the enactment of the legislation.
    Overall, the importance of ensuring VA has proper tools in place 
for long range strategic planning is something The American Legion 
supports, even if the mechanism is still under consideration. We are 
continuing to study and evaluate the matter, and are working with our 
membership and leadership to analyze the legislation as it evolves to 
develop a position that reflects what is best for the veterans of 
America. We appreciate the Ranking Member's diligence and attention to 
VA's resources in bringing the legislation forward, and hope to 
continue to work with Mr. Michaud and the committee to ensure the best 
outcome for America's veterans.
    Because The American Legion is a resolution based organization with 
two and a half million voting members, we have not had sufficient time 
to thoroughly review all of the components of this legislation, and 
plan to do so at our annual convention in Houston, Texas August 27th - 
29th, and therefore has no position on the draft legislation at this 
time.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
